Office of Inspector General
Semiannual Report to Congress


April 1, 1998 – September 30, 1998
                                               FOREWORD



I am pleased to submit the semiannual report on the activities of the Office of Inspector
General (OIG) for the period ended September 30, 1998. This semiannual report is being
issued in accordance with the provisions of the Inspector General Act of 1978, as
amended.

OIG oversight of major Department of Veterans Affairs' (VA) programs resulted in systemic
improvements and increased efficiencies in areas of medical care, procurement, financial
management, and facilities management. OIG audits, investigations and other reviews
identified over $406 million in monetary benefits, for an OIG return on investment of $23
for every dollar expended. A particularly noteworthy accomplishment was an audit of VA's
Workers Compensation program, which identified opportunities to reduce long-term
program costs by $247 million. Additional OIG accomplishments during the period
included 54 criminal convictions and 88 administrative actions, foremost of which were
cases involving health care and benefits fraud and employee misconduct.

VA, the second largest Department in the Federal government, operates the largest health
care system in the United States. The OIG Office of Healthcare Inspections continues to
focus on quality of care issues to include Veterans Health Administration’s (VHA’s)
deployment of Quality Management staff and the implementation of the Patient Safety
Improvement Policy. Through the Quality Program Assistance review process, our
healthcare inspectors conducted proactive reviews of essential aspects of VHA clinical
operations and patient treatment processes and made recommendations for improvement.

Please note that we changed the format for this semiannual report to make it more user
friendly. Accomplishments are discussed by OIG component, i.e., Office of Investigations,
Office of Audit, Office of Healthcare Inspections, and Office of Departmental Reviews and
Management Support. Within each section, we present results by VA organizational unit,
e.g., Veterans Health Administration, Veterans Benefits Administration, and so forth.

I look forward to continued partnership with the Secretary and the Congress in improving
service to our nation's veterans.



(Original signed by:)
RICHARD J. GRIFFIN
Inspector General
                                                  TABLE OF CONTENTS
                                                                                                                                                             Page

HIGHLIGHTS OF OIG OPERATIONS ..........................................................................................................                        i
VA AND OIG MISSION, ORGANIZATION AND RESOURCES ..................................................................                                              1
OFFICE OF INVESTIGATIONS
     Mission Statement ..............................................................................................................................          7
     Resources ...........................................................................................................................................     7
     Overall Performance ...........................................................................................................................           7
     Veterans Health Administration ..........................................................................................................                 7
     Veterans Benefits Administration........................................................................................................                 14
     National Cemetery System .................................................................................................................               19
     Office of Human Resources and Administration ................................................................................                            19
     OIG Forensic Documents Laboratory.................................................................................................                       20
OFFICE OF AUDIT
     Mission Statement ..............................................................................................................................         23
     Resources ...........................................................................................................................................    23
     Overall Performance ...........................................................................................................................          23
     Veterans Health Administration ..........................................................................................................                24
     Veterans Benefits Administration........................................................................................................                 28
     Office of Management ........................................................................................................................            29
     Office of Human Resources and Administration ................................................................................                            30
     Office of Information and Technology.................................................................................................                    31
     Multiple Office Action ..........................................................................................................................        32
OFFICE OF HEALTHCARE INSPECTIONS
     Mission Statement ..............................................................................................................................         35
     Resources ...........................................................................................................................................    35
     Overall Performance ...........................................................................................................................          35
     Veterans Health Administration ..........................................................................................................                35
OFFICE OF DEPARTMENTAL REVIEWS AND MANAGEMENT SUPPORT
     Mission Statement .............................................................................................................................          47
     Resources ...........................................................................................................................................    47
     Contract Review and Evaluation.........................................................................................................                  48
              Office of Management...........................................................................................................                 48
     Hotline and Special Inquiries ..............................................................................................................             50
              Hotline Section ......................................................................................................................          51
              Special Inquiries Section .......................................................................................................               54
     Policy, Followup, and Operational Support ........................................................................................                       57
     Resources Management ....................................................................................................................                59
OTHER SIGNIFICANT OIG ACTIVITIES
     President’s Council on Integrity and Efficiency...................................................................................                       61
     OIG Management Presentations ........................................................................................................                    61
     Congressional Testimony ...................................................................................................................              63
     Obtaining Required Information or Assistance...................................................................................                          63

APPENDIX A -                      REVIEWS BY OIG STAFF ......................................................................................                 65
APPENDIX B -                      CONTRACT REVIEWS BY OTHER AGENCIES ...................................................                                      71
APPENDIX C -                      CONTRACT AUDIT REPORTS FOR WHICH A CONTRACTING
                                  OFFICER DECISION HAD NOT BEEN MADE FOR
                                  OVER 6 MONTHS AS OF SEPTEMBER 30, 1998.................................................                                     73
APPENDIX D                        FOLLOWUP ON OIG REPORTS....................................................................................                 79
APPENDIX E -                      REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL........................                                                     83
APPENDIX F -                      VA OIG FIELD OPERATIONS PHONE LIST ...............................................................                          85
HIGHLIGHTS OF OIG OPERATIONS


This semiannual report highlights the activities and accomplishments of the Department of Veterans
Affairs (VA) Office of Inspector General (OIG) for the 6-month period ended September 30, 1998.
Following are the statistical highlights of OIG activities and some of the major accomplishments during
the reporting period by OIG component.

        DOLLAR IMPACT                                                                                              Dollars in Millions

                  Funds Put to Better Use........................................................................           $387.6
                  Dollar Recoveries.................................................................................         $15.0
                  Fines, Penalties, Restitutions, and Civil Judgments.............................                            $4.0

        RETURN ON INVESTMENT
                  Dollar Impact ($406.6M) / Cost of OIG Operations ($17.4M)............                                       23 : 1

        OTHER IMPACT
                  Indictments...........................................................................................      61
                  Convictions ..........................................................................................      54
                  Administrative Sanctions .....................................................................              88

        ACTIVITIES

            Reports Issued
               Audits ...................................................................................................     20
               Contract Reviews .................................................................................             16
               Healthcare Inspections .........................................................................               15
               Special Inquiries...................................................................................            9

            Investigative Cases
                Opened .................................................................................................     128
                Closed...................................................................................................     99

            Hotline Activities
               Contacts................................................................................................     7,609
               Cases Opened .......................................................................................           439
               Cases Closed ........................................................................................          497


OFFICE OF INVESTIGATIONS

During the semiannual period, criminal investigative priority was given to cases of patient abuse,
instances where incapacitated veterans fall victim to unscrupulous fiduciaries, public corruption, and
major thefts. Immediate response to these types of allegations is absolutely essential. To this end, we are
able to draw upon the varied skills of the entire OIG staff. As examples, patient abuse investigations were
usually conducted with the assistance of OIG health care professionals and major theft/embezzlement
investigations utilized the expertise of OIG audit staff. This combined multidisciplinary approach
resulted in successful judicial actions. These cases demonstrate that the OIG will take decisive action



                                                                        i
against those who prey on veterans and will hold accountable those VA employees who disregard their
public trust responsibilities. During the period, the Office of Investigations closed 99 investigations
resulting in 115 judicial actions and over $6 million returned or saved.

Veterans Health Administration

The following are examples of investigations in which Veterans Health Administration (VHA) employees
have been arrested for various illegal activities. (i) An individual employed in a VA pharmacy was
convicted of theft after a VA OIG investigation found that he conspired to steal approximately $150,000
in pharmaceuticals from the VA Medical Center (VAMC) for shipment to a commercial pharmacy. (ii)
Two individuals employed at a VAMC were arrested after an investigation found that they were in
possession of cocaine and crack cocaine, and sold the drugs to other employees and to undercover
operatives on VAMC property. (iii) A husband and wife who worked at a VAMC pleaded guilty to
charges of bank larceny after an investigation found that they executed a scheme to obtain credit cards in
the names of patients at the VAMC. They fraudulently obtained the cards by using personal patient
information and forging patient signatures, and then used the cards to obtain more than $25,000 in cash
and merchandise. (iv) An individual employed at a VA Outreach Center pleaded guilty to charges of
workers’ compensation fraud; mail fraud; and false statements. He allegedly suffered an on-the-job
injury for which he received more than $300,000 in workers’ compensation benefits payments. The
investigation found that he worked a variety of different jobs during the period he was collecting benefits.
(v) A nurse at a VAMC was found guilty of making a telephone bomb threat to a facility in retaliation
against co-workers who reported her as being involved in suspicious deaths there.

Veterans Benefits Administration

The following investigations are examples of fraud relating to some of the benefits programs administered
by VA. (i) An individual was convicted after trial on charges of equity skimming; mail fraud; bankruptcy
fraud; and money laundering. The investigation found that he had fraudulently assumed more than 50
properties whose mortgages were guaranteed by VA or insured by the Department of Housing and Urban
Development. He rented the homes but retained the rent proceeds rather than paying the lenders, causing
the loans to go into default. (ii) Three VA employees were found guilty of conspiracy to defraud VA
after an investigation found that they had participated in a scheme to embezzle over $1 million from VA.
In their capacities of providing assistance to veterans, they submitted false claims for medical expenses
and demanded kickbacks from the veterans they supposedly served. (iii) An individual was sentenced to
6 months’ home confinement, 5 years’ probation, and ordered to pay over $100,000 restitution after an
investigation found that, over a 15-year period, he converted for his own use more than $100,000 in
Dependency and Indemnity Compensation benefits paid to his deceased mother. (iv) The U.S. Attorney’s
Office is continuing to obtain civil settlements from student veterans who received VA education benefits
but did not attend scheduled college classes. Bribes were paid to faculty staff to ensure high grades
would be given with no class attendance required. To date, 216 students have agreed to pay $2,633,638
in restitution. Negotiations are continuing with additional students. Criminal proceedings against the
college staff are pending.

National Cemetery System

A Federal grand jury has returned an 11-count indictment against two individuals, the director of a VA
national cemetery and a private contractor, who supplied sand from the cemetery to other contractors.




                                                     ii
OFFICE OF AUDIT

We planned audits and evaluations to focus on determining how programs can work better, while
emphasizing improved service to veterans. As a consequence, the 20 program and financial audits and
evaluation reports issued during this 6-month reporting period have had a significant and positive impact
on VA program operations.

These reports made recommendations to enhance operations or correct deficient areas that contained $370
million in monetary benefits. The Office of Audit had a return on investment ratio of $46 in monetary
benefits for every dollar spent.

Veterans Health Administration

The following are examples of major health care related audits. (i) A report on the management of
Pathology and Laboratory Medicine Service (PLMS) operations concluded that while PLMS was
generally operated in a satisfactory manner, management needed to more closely monitor quality control
testing, staffing, and send-out tests. We estimated that over $2 million could be saved annually by
increasing oversight of the cost of quality control testing. In addition, we found that opportunities exist
for VHA to increase operational savings by an estimated $32 million annually by taking advantage of its
purchasing power to obtain chemistry tests at a lower cost. (ii) Our review of Medical Care Cost
Recovery (MCCR) collection and billing practices concluded that VHA can enhance MCCR recoveries
by $83 million by using collection tools developed by the MCCR program office, and obtaining insurance
data from veterans. (iii) As part of an ongoing national audit of VHA’s Minor Construction and
Nonrecurring Maintenance projects, we identified four construction projects that were not needed or
could be reduced in scope, resulting in cost savings of approximately $1.6 million.

Office of Management

The audit of VA’s Consolidated Financial Statements for the Fiscal Years 1997 and 1996 included a
qualified opinion concerning balances for receivables, liabilities for loan guarantees, and resources
payable to Treasury contained in VA’s Statement of Financial Position, and the items in the Statements of
Operations and Changes in Net Position; Cash Flows; and Budgetary Resources and Actual Expenses. In
each of these areas, we were unable to satisfy ourselves as to the recorded balances in these accounts
because of inadequate accounting records. Nor were we able to satisfy ourselves as to the balances by
other auditing procedures.

Multiple Office Action

An audit of VA’s Workers’ Compensation Program (WCP) found that opportunities exist to reduce WCP
costs by about $247 million, over the projected 18 year lifetime of claimants on the rolls, by conducting
more effective case management to identify employees who can be brought back to work or who should
be removed from WCP rolls.



OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections’ (OHI) program evaluations, hotline inspections, and quality
program assistance reviews, during this reporting period, show that VHA clinicians provide generally
good care to an aging, chronically infirm veteran population in a variety of clinical care environments.



                                                     iii
VHA has medical quality assurance procedures in place to detect a wide variety of medical errors, but it
needs to consider employing additional statistical procedures that will allow clinical managers to quickly
identify and correct subtle changes in clinical practices or behaviors that may result in unwanted clinical
outcomes, before the resulting problems become too serious. OHI confirmed that a majority of hotline
complaints are based on perceptions that VHA employees treated patients improperly, either personally or
clinically, and that VHA managers need to emphasize the need for employees to treat patients and their
family members as valued and important people.

Program Reviews

We conducted three health care program reviews. (i) Our analysis of VHA inpatients depicted seriously
ill individuals whose health care was complicated by impaired social support systems, and badly
compromised nutrition status. These factors should be important to VHA planners and managers as they
develop treatment planning and treatment access strategies in a health care system that is evolving to
predominantly ambulatory care. (ii) Our analysis of substantiated health care hotline allegations provided
VHA managers with information on what areas they need to emphasize for improvement in order to better
treat VA patients. (iii) Our proposal of an alternate statistical methodology to track and trend quality
management continuous monitoring information provided a way for VHA statisticians and program
managers to detect and correct the causes of possibly unwanted behaviors or practices that may result in
patient harm, earlier than most commonly used statistical methods.

Quality Program Assistance Reviews

Our Quality Program Assistance (QPA) reviews at two VAMCs found that managers are working
collaboratively to ensure that veterans have access to high quality, low cost health care. Employees
generally support the changes, but the rapid pace and scope of changes are negatively affecting employee
morale. Our review of the QPA process shows that VHA clinical managers and VAMC executive
managers are generally supportive of the QPA’s and feel that it adds value to their efforts to maintain high
quality patient care.

Patient Care Services

A patient care review concluded that attending and resident physicians rotated to other wards and
teaching facilities so frequently that nursing employees, patients, and family members did not know who
the specific responsible physician was in the event of an urgent medical situation.



OFFICE OF DEPARTMENTAL REVIEWS AND MANAGEMENT SUPPORT

Contract Review and Evaluation

Since 1993, the Division and OIG Counselor have worked closely with Office of Acquisition and
Materiel Management (A&MM) officials and contracting officers, with Office of General Counsel
attorneys, and with VHA Pharmacy Benefits Management to provide VA with a unified and coordinated
approach to reviewing certain contracts and contracting practices, and recovering contractor overcharges.
As a result of this approach, VA has witnessed a dramatic increase in dollar recoveries as well as a huge
increase in companies voluntarily disclosing to VA that they have overcharged the Government. Audits
completed by the Division during the period resulted in recoveries of $14.3 million. This represents a
$31 return for every $1 expended. Almost all of these recoveries have been returned to VA to fund



                                                    iv
needed VA programs. Recommendations were also made to assist contracting officers in negotiating the
best possible prices that may save VA an additional $14.1 million.

Hotline and Special Inquiries

The Hotline and Special Inquiries program provides an opportunity for employees, veterans, and other
concerned citizens to report fraud, waste, abuse, and mismanagement. The identification and reporting of
issues such as these are integral to the goal of improving the efficiency and effectiveness of the Federal
Government. We are encouraged to find employees, veterans and other concerned citizens who are
willing to report illegal or wasteful activities they have observed in order to improve Government
operations. Because of their efforts during the semiannual period, the Hotline and Special Inquiries
Division recorded 32 administrative sanctions against employees and 106 corrective actions taken by
management to improve VA operations and activities. The reports issued by special inquiries staff
concerned serious issues of misconduct against high ranking officials and other high profile matters,
which received a great deal of interest from the U.S. Congress, VA Secretary, VA managers, media, and
the general public. The Inspector General testified in May 1998 before the Subcommittee on Oversight
and Investigations, House Veterans’ Affairs Committee regarding one special inquiries report. In another
request from the Subcommittee, we responded to numerous allegations of mismanagement, misconduct,
poor clinical care practices, criminal activity, and administrative irregularities at one VA medical health
care system. The subsequent report resulted in recommendations to take administrative actions against
senior officials and supervisors, correct certain personnel violations, and improve patient care procedures,
and administrative operations and activities.

Followup on OIG Reports

The Followup, Policy, and Operational Support Division is responsible for obtaining implementation
actions on audits, inspections, and reviews with over $1 billion of actual or potential monetary benefits as
of September 30, 1998. Of this amount $795 million is resolved, but not yet realized as VA has agreed to
implement the recommendations, but has not yet done so. In addition, $248 million relates to unresolved
reviews awaiting contract resolution by VA contracting officers. During this reporting period, the
Division took action to close 75 reports issued in this and prior periods, with 242 recommendations and a
monetary benefit of $133 million, after obtaining information that showed management officials had fully
implemented corrective actions.




                                                     v
vi
VA AND OIG MISSION, ORGANIZATION,
AND RESOURCES
The Department of                                        Organization
Veterans Affairs (VA)                                    VA has 3 administrations that operate direct
                                                         services to veterans:
                                                         • Veterans Health Administration (VHA)
Background                                               provides health care,
In one form or another, American governments             • Veterans Benefits Administration (VBA)
have provided veterans benefits since even               provides benefits, and
before the Revolutionary War. VA’s historic              • National Cemetery System (NCS) provides
predecessor agencies demonstrate our Nation’s            burial and recognition.
long commitment to veterans.
                                                         To support these services and benefits, there are
The Veterans Administration had been in                  six Assistant Secretaries, including:
existence since 1930, when Public Law 71-536             • Management (Budget, Financial
consolidated the Veterans’ Bureau, the Bureau            Management, Acquisition and Materiel
of Pensions, and the National Home for                   Management (A&MM)),
Disabled Volunteer Soldiers.                             • Information and Technology,
                                                         • Policy and Planning,
The Department of Veterans Affairs was                   • Human Resources and Administration
established on March 15, 1989, by Public Law             (Human Resources Management,
100-527, which elevated the Veterans                     Administration, Security and Law Enforcement,
Administration, an independent agency, to                Equal Opportunity, and Resolution
Cabinet-level status.                                    Management),
                                                         • Public and Intergovernmental Affairs, and
Mission                                                  • Congressional Affairs.

VA's motto comes from Abraham Lincoln's                  In addition to VA’s Office of Inspector General,
second inaugural address, given March 4, 1865,           other staff offices providing support to the
"to care for him who shall have borne the battle         Secretary include the Board of Contract
and for his widow and his orphan." These words           Appeals, the Board of Veterans’ Appeals, the
are inscribed on large plaques on the front of the       Office of General Counsel, the Office of Small
VA Central Office building on Vermont Avenue             and Disadvantaged Business, and the Centers for
in Washington, DC.                                       Minority Veterans and for Women Veterans.

The Department’s mission is to serve America’s           Resources
veterans and their families with dignity and
compassion and to be their principal advocate in         While most Americans know that VA exists,
ensuring that they receive the care, support, and        few have any idea of the size of this Department,
recognition earned in service to this nation.            which is the nation’s second largest in terms of
                                                         staffing. For FY 1998, VA had 207,066
                                                         employees and a $43 billion budget.




                                                     1
                                              VA and OIG Mission, Organization and Resources

There are an estimated 25.9 million living
veterans and the provision of legislatively
                                                       VA Office of Inspector
mandated services to them is a massive                 General (OIG)
operation. To serve our nation’s veterans, VA
maintains facilities in every state of the union
and the District of Columbia, the                      Background
Commonwealth of Puerto Rico, Guam, and the
Philippines.                                           VA’s OIG was administratively established on
                                                       January 1, 1978, to consolidate audit,
Approximately 191,000 of VA’s employees                investigation, and related operations into a
work in the health care system. Health care            cohesive, independent organization. In 1978,
accounts for $18 billion (approximately 42%) of        the Inspector General Act (Public Law 995-452)
VA’s budget in FY 1998. VHA provides care to           was enacted and established a statutory
an average of 63,000 inpatients daily. During          Inspector General (IG) in VA.
FY 1998, slightly more than 35 million episodes
of care were provided to outpatients. There are        Role and Authority
172 hospitals, 602 outpatient clinics, 132
nursing home units, and 40 domiciliaries.              The Inspector General Act of 1978 states that
                                                       the IG is responsible for: (1) conducting and
Veterans benefits were funded at $24 billion           supervising audits and investigations, (2)
(almost 56%) in FY 1998. The 11,254                    recommending policies designed to promote
employees of VBA provide benefits to veterans          economy and efficiency in the administration of,
and their families. Approximately 2.6 million          and to prevent and detect fraud and abuse in, the
veterans and their beneficiaries receive               programs and operations of VA, and (3) keeping
compensation benefits valued at over                   the Secretary and the Congress fully informed
$17 billion. Also over $3 billion in pension           about problems and deficiencies in VA
benefits are provided to veterans and survivors.       programs and operations and the need for
VA life insurance programs have 4.8 million            corrective action.
policies in force with a face value of over $469
billion. Almost 369,000 home loans were                The Inspector General Act Amendments of 1988
guaranteed, with a value of almost $40 billion.        provided the IG with a separate appropriation
                                                       account and a revised and expanded procedure
The National Cemetery System operates and              for reporting semiannual workload to Congress.
maintains 115 cemeteries and had 1,328                 The IG has authority to inquire into all VA
employees in FY 1998. Operations of NCS and            programs and activities as well as the related
all of VA’s burial benefits accounted for              activities of persons or parties performing under
approximately $199 million of VA’s $43 billion         grants, contracts, or other agreements. The
budget. There are almost 77,000 interments in          inquiries may be in the form of audits,
VA cemeteries each year. Approximately                 investigations, contract reviews, inspections, or
337,000 headstones and markers are provided            other appropriate actions.
for veterans and their eligible dependents in VA
cemeteries, state veterans’ cemeteries, and
private cemeteries.




                                                   2
                                                 VA and OIG Mission, Organization and Resources

Organization
Allocated full time equivalent (FTE) for FY 1998                           VHA         Fin. Mgmt.
was as follows:                                                            29%            19%

                                                                                         IRM
                                                                                          4%
            OFFICE               ALLOCATED
                                     FTE                                  A&MM         VBA
                                                                           22%         26%
 Inspector General                        4
 Counselor                                4
 Investigations                         80
                                                            The following chart indicates percent of OIG
 Audit                                 170                  resources which have been devoted to mandated,
 Departmental Reviews                                       reactive, and proactive work.
 and Management                       * 45
 Support
 Healthcare Inspections                 20
                                                                        Reactive        Mandated
           TOTAL                       323                                 42%              19%


* Does not include 23 reimbursable FTE.

FY 1998 funding for OIG operations was                                                Proactive
                                                                                          39%
$33.4 million, with $31 million from
appropriations and $2.4 million through
reimbursable agreements. Approximately
85 percent of the total funding was for personnel
salaries and benefits, 5 percent for official travel,       Mandated work is required by law and the
and the remaining 10 percent for all other                  Office of Management and Budget; examples
operating expenses such as contractual services,            are our audits of VA’s Consolidated Financial
rent, supplies, and equipment.                              Statements, followup activities, and Freedom of
                                                            Information Act information releases.
The percent of OIG resources, which have been
devoted during this semiannual reporting period             Reactive work is generated in response to
in VA’s major organizational areas, are                     requests for assistance received from external
indicated in the following chart.                           sources concerning allegations of fraud, waste,
                                                            abuse, and mismanagement. Most of the work
                                                            performed by the Offices of Investigations and
                                                            Hotline and Special Inquiries is reactive.

                                                            Proactive work is self-initiated and focuses in
                                                            areas where the OIG staff determines there are
                                                            significant issues; healthcare inspections and
                                                            audits fall into this category.




                                                        3
                                             VA and OIG Mission, Organization and Resources

OIG Mission Statement
  The OIG is dedicated to helping VA ensure
  that veterans and their families receive the
  care, support, and recognition they have
  received through service to their country.
  The OIG strives to help VA achieve its
  vision of becoming the best managed
  service delivery organization in
  government. The OIG continues to be
  responsive to the needs of its customers by
  working with the VA management team to
  identify and address issues that are
  important to them and the veterans served.

  In performing its mandated oversight
  function, the OIG conducts audits, health
  care inspections, investigations, special
  inquiries, and contract reviews to promote
  economy, efficiency, and effectiveness in
  VA activities, and to detect and deter fraud,
  waste, abuse, and mismanagement. The
  OIG’s oversight efforts emphasize the goals
  of the National Performance Review and
  the Government Performance and Results
  Act for creating a government that works
  better and costs less. Inherent in every
  OIG effort are the principles of quality
  management and a desire to improve the
  way VA operates by helping it become more
  customer driven and results oriented.

  The OIG will keep the Secretary and the
  Congress fully and currently informed
  about issues affecting VA programs and
  the opportunities for improvement. In
  doing so, the staff of the OIG will strive to
  be leaders and innovators, and perform
  their duties fairly, honestly, and with the
  highest professional integrity.




                                                  4
                                                                        DEPARTMENT OF VETERANS AFFAIRS
                                                                          OFFICE OF INSPECTOR GENERAL

                                                                                                Inspector General
                                               Executive Assistant                              ______________                           Counselor to Inspector General
                                                                                                     Deputy



           Assistant Inspector General
                                                                     Assistant Inspector General                    Assistant Inspector General                        Assistant Inspector General
           Departmental Reviews and
                                                                            Investigations                                   Auditing                                    Healthcare Inspections
             Management Support
                                                                       __________________                             _________________                                  _________________
             _________________
                                                                               Deputy                                         Deputy                                             Deputy
                     Deputy

                                                                                                                                                           Medical Assessment
                            Policy, Followup                                                                                                                      and
      Hotline and                                            Health Care                    Analysis and
                            and Operational                                                                                                                   Consultation
    Special Inquiries                                          Fraud                         Oversight
                                Support
                                                                                                                                                               Patient Care              Health Systems
                                                                                                                                                             Inspections and              Development
                                                                                                                                                                Evaluation
                                                                                             Forensic
    Contract Review           Resources
                                                                 Medical                    Documents
     and Evaluation          Management
                                                                                            Laboratory




5
                                                                                                                                                     Operations Divisions
                                                                                                                         Financial Audits              Central Office
                                                                                                                         and Assistance                   Bedford
                                                                                                                                                           Atlanta
                                                              Procurement               Benefits Fraud                                                    Chicago
                                                                                                                          Management,                   Kansas City
                                                                                                                           Policy and                      Seattle
                                                                                                                          Professional
                                                                                                                          Development

                                                                                                                            Technical                   Sub-Offices
                                                                            Field Offices                                    Support                      Dallas
                                                                             Northeast                                     Austin Sub-                     Hines
                                                                             Southeast                                        Office                    Los Angeles
                                                                              Central                                                                   Philadelphia
                                                                              Western                                     Planning and
                                                                                                                           Operational
                                                                                                                             Support


                                                                      Resident   Agencies                                   Financial
                                                                 Atlanta         Boston                                     Statement
                                                                 Columbia        Dallas
                                                                 Houston         Kansas City
                                                                 New Orleans     Newark                                      Austin
                                                                 Phoenix          San Francisco                            Sub-Office
                                                                 Washington       W. Palm Beach
VA and OIG Mission, Organization and Resources




  6
OFFICE OF INVESTIGATIONS
Mission Statement                                        Cost Effectiveness
                                                         • The average cost of conducting the 99
    Conduct investigations of criminal                   closed investigations was $11,354. Each
    activities affecting the programs and                investigation averaged a return of $51,683,
    operations of VA in an independent and               resulting in approximately $4.60 returned for
    objective manner, and assist the                     every $1 spent.
    Department in detecting and preventing
    fraud and other criminal violations.                 Timeliness
                                                         • Average work days from receipt of
Resources                                                allegation to initiation of investigation averages
                                                         39 days against a goal of 45 days.
Office of Investigations was allocated 80 FTE            • Average work days from initiation of
for its headquarters and 16 field locations for FY       investigation to referral to an Assistant U.S.
1998. These individuals were deployed in the             Attorney was 179 days which greatly exceeded
following program areas:                                 our goal of 365 days.

                                                         Customer Satisfaction
                                                         • Customer satisfaction survey forms were
                                                         provided to each prosecutor upon referral of an
                                                         investigation for criminal prosecution. All
                           VHA
                                                         ratings received exceeded 4.0 and averaged 4.9
                           28%
                                                         out of a possible 5.0 (5.0 means strongly agree
                                                         and 1.0 means strongly disagree).
             VBA
                            A&MM
             61%
                             11%
                                                         Following are summaries of some of the
                                                         investigations conducted during the reporting
                                                         period by VA component. We discuss VHA,
                                                         VBA, NCS, and the Office of Human Resources
                                                         and Administration. This is followed by the
                                                         OIG Forensic Document Laboratory.
Overall Performance
Output
• 99 investigations were closed during the               Veterans Health
reporting period.                                        Administration
Outcome
• Indictments - 61                                       Fraud and other criminal activities committed
• Convictions - 54                                       against VHA encompass patient abuse, theft of
• Monetary Benefits - $6.1 million                       Government property, drug diversion,
                                                         bribery/kickback activities by employees and
• Administrative Sanctions - 56
                                                         contractors, false billings, inferior products, and
                                                         so forth.




                                                     7
                                                                               Office of Investigations

During the reporting period, we have continued           VAMC pharmacist manipulated the VA
our support to VHA in its attempt to remove              pharmacy computer to generate fraudulent
from the workers’ compensation rolls those               prescriptions for narcotics in the names of
employees fraudulently accepting benefits. The           patients. After execution of search warrants
Office of Investigations investigates those              disclosed diverted drugs and documentation in
instances of criminal activity against VHA that          support of the crime, the individual confessed to
have the greatest impact and most deterrent              possession and diversion of narcotics from the
value.                                                   VAMC and resigned from Government service.
                                                         Judicial action is pending.

Employee Integrity                                       • A VAMC registered nurse was terminated
                                                         from Government service based on evidence
Theft/Diversion of Pharmaceuticals                       disclosed through a joint VA OIG and VA Police
                                                         investigation into diversion of controlled
• A former VAMC pharmacy technician, who                 substances from the VAMC. The nurse provided
was also a local union official, over a 3-year           a sworn statement wherein he admitted to
period stole approximately $150,000 in                   diverting controlled substances to maintain his
pharmaceuticals from the VAMC and shipped                drug addiction, and further admitted making false
them to two individuals who co-owned a                   entries on VAMC logs to cover his theft. He also
commercial pharmacy service. He was                      admitted being under the influence of drugs while
sentenced to 5 months’ home confinement, 5               on duty. A criminal complaint was filed charging
years’ probation and ordered to make restitution         the nurse with possession of a controlled
to VA of $147,140. A second party in the case,           substance, alteration of a medical record, and theft
previously employed both as a VAMC                       of property. Judicial action is pending.
pharmacist and as president of the commercial
pharmacy, was sentenced to 27 months’                    • A VAMC pharmacist was arrested after a
incarceration, 3 years’ supervised probation, and        joint VA OIG and VA Police investigation
ordered to pay restitution of $154,000 to VA.            revealed that he had diverted drugs from the
This individual also agreed to settle his federal        pharmacy’s narcotics vault, destruction bins, and
income tax liability for $280,668 and to forfeit         outgoing mail. As a result of a search incident
his state pharmacist’s licenses in three states. A       to his arrest, and subsequent consent searches,
third individual, who was vice-president of the          narcotic substances were found, as well as two
commercial pharmacy, was sentenced to 24                 concealed knives. Some of the prescription
months’ incarceration, 3 years’ supervised               containers found during the searches indicated
probation, ordered to pay $123,974 in restitution        that they were drugs that should have been
and $10,000 in fines. The third individual               mailed to veteran patients. Other containers
settled his federal tax liability by providing a         indicated that they were unused medications that
check for $343,000 to the Internal Revenue               had been returned to the pharmacy for
Service at his sentencing. He is prohibited from         destruction. He faces charges of burglary,
working in the pharmaceutical industry as part           possession of controlled substances, theft of
of his future probation.                                 property, and possession of a concealed deadly
                                                         weapon.
• A joint VA OIG, Federal Bureau of
Investigation (FBI), and Drug Enforcement
Administration investigation disclosed that a




                                                     8
                                                                             Office of Investigations

Use/Sale of Illegal Drugs                               restitution in the amount of $25,905. The
                                                        husband stole pre-approved credit card
Two individuals, the first formerly employed in         applications from mail that was to be delivered
the dental service at a VAMC, and the second            to hospital inpatients on his ward. They applied
currently employed as a housekeeper at the              for 12 cards under the names of VA patients and
VAMC, were arrested pursuant to the issuance            obtained cash and merchandise totaling
of a warrant for knowingly and intentionally            approximately $25,905. The victims were all
possessing cocaine. During the arrest, numerous         patients hospitalized for treatment of Post
crack vials and a crack pipe were found in the          Traumatic Stress Disorder resulting from
apartment in which the two resided. A joint VA          psychological trauma experienced during their
OIG and FBI investigation revealed that the             military service.
individuals sold drugs to other VAMC
employees and to undercover operatives on the           • A former VAMC practical nurse was
grounds of the VAMC. After the arrest, both             indicted in U.S. District Court on 29 counts of
were arraigned and released on $10,000 personal         bank fraud and 2 counts of forgery.
recognizance bonds. Soon after being released,          Investigation disclosed that the nurse stole
the former dental clerk was arrested again for          personal checkbooks from inpatients and wrote
violating the conditions of her pretrial release.       checks to himself, forging the veterans'
She was arraigned before a Federal magistrate           signatures. He also forged the endorsement of
and incarcerated pending acceptance into a drug         two U.S. Treasury checks made payable to one
treatment program.                                      of the veterans. Several checks were written
                                                        after the veterans expired at the VAMC. The
Theft and Embezzlement                                  total loss is approximately $33,350.

• A former VAMC driver was arrested on an               Acceptance of Bribes, Gratuities,
outstanding warrant for theft of Government             Conflicts of Interest
funds. A VA OIG investigation disclosed the
individual had used a Government Fleet Service          Five individuals were indicted by a Federal
Credit Card to make more than $4,000 worth of           grand jury for mail fraud in connection with a
unauthorized gasoline purchases for use in              scheme to submit false claims to a VAMC. One
personally owned vehicles. The individual fled          of the individuals, a maintenance supervisor,
and had been a fugitive for 5 months. He was            was terminated from the VAMC after he was
arraigned in U.S. District Court and released on        indicted on nine counts of mail fraud. Other
$100,000 bond.                                          individuals named in the indictment worked for
                                                        companies that supplied construction materials
• A husband and wife, both of whom were                 and/or services to the VAMC. A joint VA OIG
employed as VAMC medical ward clerks, each              and FBI investigation disclosed the maintenance
pleaded guilty to one count of bank larceny and         supervisor assisted four separate vendors in
were subsequently sentenced for executing a             using the mail to submit false claims for
scheme to obtain credit cards in the names of           materials and services in exchange for providing
VAMC patients. The husband was sentenced to             him gifts and money.
6 months in a halfway house, 5 months’ home
detention, 5 years’ probation, and restitution in
the amount of $25,905. The wife was sentenced
to 6 months’ home detention, 5 years’ probation,
and joint responsibility with her husband for




                                                    9
                                                                               Office of Investigations

Workers’ Compensation Benefits Fraud                     work, and began receiving workers’
                                                         compensation payments which have exceeded
• A former VAMC motor vehicle operator                   $300,000. A joint VA OIG and DOL
was ordered to pay the Government $175,000 in            investigation revealed that, during the time he
restitution after he admitted submitting false           was receiving benefits, he was working among
statements in order to receive Federal workers’          other things as: a counselor at a children’s
compensation benefits. He acknowledged that,             school, a psychologist at an elementary school,
during the same period of time, he owned and             an adjunct professor at a university, the owner of
operated a restaurant. In addition, he was               a transportation company, co-director of a
sentenced to 6 months’ home confinement and 5            psychotherapeutic evaluation program and a
years’ probation.                                        preschool, and a self-employed psychologist.
                                                         Sentencing is pending.
• A former VAMC laborer was sentenced to
12 months’ incarceration, 36 months’ probation,
and ordered to make $5,886 in restitution, in            Other Employee Misconduct
response to a guilty plea to workers’
compensation fraud. Investigation disclosed that         • A VAMC engineer resigned employment and
he submitted false claims and false statements to        paid restitution of $3,800 after a VA OIG
the Government indicating he was unable to               investigation revealed that he had misused his
work due to an on-the-job injury when, in fact,          Government VISA IMPAC credit card by making
he was working at a convenience store. As a              personal purchases. A consent search of the
result of the successful prosecution of this             individual's home by VA OIG agents disclosed
matter, the Government will realize future               items purchased for personal use using the card.
savings of $201,042 in payments that he will not
collect.                                                 • A former VAMC nurse was sentenced to 15
                                                         months in prison and 3 years’ supervised release,
• A former VAMC pharmacy assistant was                   with the judge recommending referral to a mental
sentenced to 4 months’ home confinement, 4               health program during her incarceration. The
years’ probation, and ordered to pay $57,870 in          nurse had been found guilty of making a
restitution for making false statements and using        telephone bomb threat to the VAMC in which she
a false social security number. A joint VA OIG,          had worked in retaliation against co-workers who
Department of Labor (DOL) OIG, and Social                reported her as a suspect in numerous deaths at the
Security Administration (SSA) OIG                        facility. As a result of the bomb threats, patients
investigation disclosed that, while receiving            were evacuated from the building which housed
workers’ compensation benefits for an injury             the intensive care unit.
received at the VAMC, she also worked at a
private retail outlet. During this time, she             • A VA physician, conducting research both as
continued to report to the DOL that she was              a VA employee and under the auspices of a
unemployed. Loss to VA was in excess of                  private firm, failed to account properly for work
$52,000.                                                 hours performed by VA employees and to
                                                         delineate between hours applied to VA projects
• A VA Outreach Center specialist pleaded                versus his private research. Investigation revealed
guilty to a nine-count indictment charging him           poor management practices, coupled with
with workers’ compensation fraud, mail fraud,            inadequate instruction and lack of oversight,
and false statements. He allegedly injured his           which enabled the breakdown of accountability.
back in 1984 while lifting a bundle of papers at         The individual reimbursed the VAMC-affiliated




                                                    10
                                                                                Office of Investigations

non-profit research entity $44,705, which                  food, medical, or pharmaceutical sections of the
represented VA’s total contribution to the research        prison. As a condition of his future supervised
efforts.                                                   release, he is to undergo mental health
                                                           counseling and allow unannounced searches of
• A joint investigation by VA OIG, IRS, and                his residence. The individual has been the
DOL disclosed that for almost 3 years, three VA            subject of numerous television and print media
employees participated in a scheme where they              stories, regarding allegations that he had
prepared false tax returns for other VA                    poisoned patients under his care both in the
employees while working at the VAMC morgue,                United States and in Africa.
took kickbacks from funeral home directors,
embezzled funds from the union office at the               • A former VA Medical and Regional Office
VAMC, issued checks to themselves and others               Center employee was indicted on two counts of
for personal benefit, used the union’s credit card         making false statements to the Government. A
to purchase personal items and services, and               VA OIG investigation disclosed the individual
made false statements to DOL in annual reports             claimed an ineligible person as a dependent on
the union submitted in order to conceal the                his application for compensation benefits. He
embezzlement of funds. One of the employees,               consequently received over $3,000 to which he
a former VAMC histopathology technician,                   was not entitled.
pleaded guilty to conspiring to bribe a public
official, mail fraud in connection with his                • A VAMC occupational therapy assistant,
attempted embezzlement of approximately                    and his daughter, were both indicted on charges
$190,000 from the union office, and falsely                of mail fraud, wire fraud, and conspiracy. A
submitting personal tax returns. The second                joint VA OIG, Postal Inspection Service, and
individual, a former VAMC morgue technician,               Secret Service investigation revealed that the
who also served as union president, pleaded                two offered to sell merchandise on the Internet
guilty to embezzlement of union funds, mail                but, after receiving money from prospective
fraud, and making false statements to the DOL.             buyers, failed to provide the merchandise. The
The third party in the case, a former VAMC                 daughter advised prospective buyers that the
programmer assistant, who served as union                  father was the contact person and gave his
secretary-treasurer, pleaded guilty to conspiracy          VAMC work number for questions about the
to commit mail fraud, making false statements to           merchandise. The father received phone calls
the DOL, conspiracy to embezzle union funds,               from prospective buyers during his scheduled
filing a false personal income tax return, and             tour of duty, as well as having had payments in
possessing a firearm in a Federal facility.                excess of $14,000 sent to him at the VAMC.

• An individual was sentenced to 42 months’                • A former VAMC registered nurse was
imprisonment and 3 years’ supervised release               terminated from employment and pleaded guilty
for having made misrepresentations to officials            to making false representations concerning his
at a state university regarding the nature of a            education and experience in his VA employment
prior criminal conviction. He failed to reveal             application. A VA OIG investigation revealed
that he had been imprisoned in the 1980s for               that he submitted false documents claiming he
poisoning several co-workers, and this                     had an Associate Degree, a Bachelor’s Degree,
misrepresentation led to his acceptance by the             assorted Certificates of Licensure, and a
university and subsequent VAMC residency                   Master’s Degree. Based on the falsified
position. During his current incarceration, he is          documents, he was hired initially as a staff nurse
prohibited from any work assignment in the                 and was promoted to nursing care coordinator.




                                                      11
                                                                               Office of Investigations

Loss to the Government due to increased salary           • An individual was indicted on charges of
payments exceeds $500,000. Sentencing is                 fraudulently attempting to obtain controlled
pending.                                                 substances. A VA OIG investigation determined
                                                         that, while undergoing treatment as a patient, the
• A former VAMC psychiatric unit registered              individual removed blank VA prescription pads
nurse was indicted on one count of false                 from two VA hospitals and forged prescriptions
statements. Investigation disclosed the nurse            to obtain Percocet, a Schedule II narcotic and
routinely slept during her shifts and made false         Darvocet, a Schedule IV narcotic.
statements to Federal agents when questioned on
the subject. For the majority of the nights she
worked, she was the only registered nurse                Health Care Fraud
assigned to the unit and the only staff member
able to dispense medications to patients.                • An individual was indicted on six counts of
Prosecution is pending.                                  making false statements after a VA OIG
                                                         investigation disclosed that he misrepresented
                                                         himself as a veteran, using an identification card
Patient Abuse/Death                                      stolen from a veteran’s wallet, in order to
                                                         receive VA medical services to which he was
• A former VAMC physician was found guilty               not entitled. Loss to VA is estimated at
of involuntary manslaughter and placed under             $100,000.
house confinement following trial. A joint VA
OIG and FBI investigation determined the                 • Three former officers of a private nursing
physician injected an 86-year old patient with a         home pleaded guilty to conspiracy charges of
lethal dose of potassium chloride against the            filing false claims against VA and Medicaid,
advice of other caregivers present. Sentencing           violating Federal tax laws, and committing wire
is pending, following a pre-sentence                     and mail fraud. A joint VA OIG, FBI, and IRS
investigation.                                           investigation revealed the three created false
                                                         billings for nursing home care of patients who
• A practical nurse was terminated from a                had been discharged from the home, returned to
VAMC for abusing a patient, after a joint VA             VAMCs, or were deceased. The false claims
OIG and FBI investigation revealed that the              resulted in a loss to the Government in excess of
nurse slapped the patient’s face, resulting in           $770,000. Sentencing and a related civil suit are
facial cuts. During the course of the                    pending.
investigation, other patient abuse allegations
involving other VA employees have surfaced.              • A telemarketing company employee who
Criminal prosecution is pending.                         had been indicted on 15 counts of mail fraud
                                                         pleaded guilty and was sentenced to 4 months’
                                                         imprisonment, 4 months in a community
Control of Drugs                                         correctional facility, 36 months’ supervised
                                                         probation, and restitution of $5,245. The
• A former VAMC patient was sentenced to 5               individual previously had pleaded guilty to one
months’ imprisonment and 12 months’                      count of interstate commercial carrier fraud after
supervised release on charges of selling diverted        a joint VA OIG and FBI investigation revealed
VA pharmaceuticals and making threats to a VA            that she was involved in a telemarketing scheme
OIG source.                                              in which she impersonated a VA employee.




                                                    12
                                                                                 Office of Investigations

Investigation disclosed that the individual, who           • An individual was arrested, arraigned, and
claimed to work for a VAMC, sold advertising               released on his own recognizance after a joint
space in the union newsletters to doctors and              VA OIG, Secret Service, and Postal Inspection
businesses by falsely representing that the                Service investigation disclosed that the
VAMC had initiated a program where                         individual, a former Postal Service employee
employees could choose their physician, pay for            who worked part-time at a store, stole payroll
services at the time rendered, then receive                checks intended for VAMC employees, and
reimbursement from the VAMC. She falsely                   converted some of the checks for personal use.
represented to victim doctors, to obtain                   The checks were cashed at the supermarket
advertising, that they had ranked in the top five          where the individual was employed. A trial date
in an alleged poll of VAMC employees, when                 is pending. In a separate incident, the individual
no such poll had been conducted.                           was convicted on state charges for fraudulently
                                                           negotiating stolen personal bank checks.
• A former VAMC practical nurse, who
operated a home health care service for veterans,
was sentenced to 90 days’ incarceration, 6                 Armed Robbery
months’ home confinement with electronic
monitoring, 5 years’ probation, and restitution.           An individual entered the Federal Credit Union
The nurse previously had pleaded guilty to                 at a VAMC before business hours and
charges of grand larceny, engaging in a scheme             committed armed robbery. Posing as a
to defraud, and offering a false instrument for            deliveryman and asking for two credit union
filing claims. In a joint VA OIG and Medicaid              employees by name, he requested entry to
fraud unit investigation, the nurse admitted filing        deliver a package. Once inside, he brandished a
over 800 false documents with various entities             handgun and tied up the employees. He emptied
including VA, billing for aspects of home health           the safe, taking approximately $147,000. VA
care she was reportedly providing to a                     OIG agents at the VAMC located a key witness
quadriplegic veteran. She did not provide the              to the crime, and set up an ad hoc task force with
services for which she billed and illegally                the local police, local county sheriff’s office, and
subcontracted other services to non-licensed               the FBI to establish and investigate leads. A
individuals who, in turn, cared for the veteran.           suspect was arrested and approximately
The fraud is estimated to exceed $350,000.                 $144,000 was recovered. Judicial action is
                                                           pending.

Theft of Government Property
                                                           Construction Related Fraud
• An individual employed by a VA medical
supplies contractor entered into a pretrial                • The owner of a firm used to launder
diversion agreement after being charged with               fraudulently obtained titles to real property was
theft of Government property. The agreement                sentenced to 41 months’ confinement, 36
included 12 months’ supervised probation and               months’ supervised probation, fined $75,000,
restitution of $1,754. A VA OIG investigation              and ordered to make restitution of $293,189. An
revealed the individual, employed by the                   attorney in the case was sentenced to 37 months’
contractor to supply medical equipment to a                incarceration, 36 months’ probation upon
state veterans home, sold equipment which                  release, and was ordered to make restitution of
should have been returned to the local VAMC                $1,531,419, of which approximately $100,000 is
and kept the money for personal use.




                                                      13
                                                                                Office of Investigations

payable to Government agencies. A third
individual was sentenced to 24 months’
                                                           Veterans Benefits
probation and 75 hours of community service for            Administration
tampering with a witness. All of the individuals
were members of a real estate development and
                                                           VBA provides wide-reaching benefits to veterans
investment syndicate that used assets as
                                                           and their dependents including pension and
collateral on personal surety bonds issued to
                                                           compensation payments, home loan guaranty
VA, other government agencies, and contractors.
                                                           services, and educational opportunities. Each of
Collateral consisted of real property on which
                                                           these benefits programs is subject to fraud. For
the conspirators had obtained fraudulent titles
                                                           example, individuals submit false claims for
and inflated assessments. The owner of the firm
                                                           service connected disability, third parties steal
was instrumental in the acquisition of fraudulent
                                                           pension payments issued after the unreported
title to, and false valuation of, property that was
                                                           death of the veteran, individuals provide false
used as collateral for a personal surety bond on a
                                                           information so that veterans qualify for VA
VAMC construction contract.
                                                           guaranteed property loans, equity skimmers
                                                           dupe veterans out of their homes, and
• Two individuals have been charged in a 23-
                                                           educational benefits are obtained under false
count indictment returned by a Federal grand
                                                           representations. The Office of Investigations
jury with, among other things, conspiring to
                                                           spends considerable resources in investigating
make false statements, bribery of an official,
                                                           and arresting those who defraud the benefits
submitting false payroll reports, perjury, and
                                                           operations of VA.
supplying false information to a Federal grand
jury. The two individuals are officials of a
private construction company. A joint VA OIG,
DOL, and Department of Defense investigation
disclosed that, over a 2-year period, the
individuals instructed a subcontractor to submit
false payroll reports to a DOL investigator                Loan Guaranty Program Fraud
certifying that they paid a federally-mandated
minimum hourly wage rate for renovation at a               Loan Origination Fraud
VAMC. The indictment further alleges these
individuals and other construction company                 • An individual employed as a property
employees conspired to submit false payroll                management broker for VA and her spouse
reports to the subcontractor. In addition, one of          pleaded guilty to charges of conspiracy to
the individuals allegedly paid $1,000 to the               defraud VA. A VA OIG investigation disclosed
president of the subcontracting company to                 that the couple aided an individual in purchasing
influence his statement to DOL about the wage              several VA portfolio properties, providing false
payments. False payroll reports also were                  information to VA to qualify the individual for
submitted to the Department of the Army for the            the loans. In addition, the couple submitted
subcontractor’s work at an Army facility.                  false loan origination documentation using a
                                                           friend as a “straw” buyer in order to purchase a
                                                           VA property for themselves in violation of law
                                                           and VA regulations. All the properties
                                                           purchased as a result of the conspiracy are
                                                           currently in foreclosure. Sentencing is pending.




                                                      14
                                                                               Office of Investigations

• An individual pleaded guilty to charges of              allegations that the individual gave false
fraud against the Government and was sentenced            statements to obtain a VA guaranteed loan.
to 27 months in prison and 36 months’ supervised
probation. A joint investigation by VA OIG, FBI
and SSA OIG revealed that, over a 3-year period,          Equity Skimming
the individual, who worked as a realtor, and three
co-conspirators were involved in a scheme to              • A letter was issued by the Director of the
defraud VA by submitting false claims and                 VA Loan Guaranty Service debarring two
statements concerning the purchase of 26 VA               individuals and their companies for a period of 3
owned properties. The individual falsified                years. A joint VA OIG and HUD OIG
employment and credit histories on mortgage               investigation completed earlier this year
qualification documents for individuals not               disclosed the two individuals assumed home
otherwise financially qualified to purchase the           loans on two VA guaranteed properties and eight
properties. Sentencing of the co-conspirators is          HUD insured properties, collected rent money
pending.                                                  from tenants placed in the homes, but failed to
                                                          make payments to the lenders. They then
• The owner of a realty firm was sentenced in             proceeded to file bankruptcies in fictitious
U.S. District Court to 12 months’ confinement,            names on the 10 properties, stalling foreclosure
and 5 years’ supervised probation. He had                 and enabling them to continue collecting rents.
earlier pleaded guilty to one count of wire fraud         One of the individuals, a law student, was
in connection with the activities of his firm and         sentenced to 30 months’ incarceration, 5 years’
signed a forfeiture order directing him to                probation, ordered to pay a fine of $5,000 and
relinquish assets totaling $987,785. A joint VA           make restitution of $24,220. The second
OIG, HUD OIG, and FBI investigation disclosed             individual was sentenced to 12 months’
the individual participated in the purchase of            incarceration, 3 years’ probation, ordered to pay
low-cost distressed properties, cycled them               a fine of $2,500 and restitution of $24,220.
through front companies to inflate their assessed
value, and then sold them to fraudulently                 • An individual was convicted in U.S. District
qualified applicants.                                     Court on 1 count of equity skimming, 7 counts
                                                          of mail fraud, 8 counts of bankruptcy fraud, and
• A VA beneficiary was sentenced to 12                    11 counts of money laundering. A joint VA
months’ incarceration, 24 months’ supervised              OIG and HUD OIG investigation disclosed the
probation, and mandatory participation in a               individual had fraudulently assumed over 50
substance abuse recovery program for two                  properties whose mortgages were guaranteed by
violations of state health and safety codes for           VA or insured by HUD, rented the homes, and
possession with intent to distribute dangerous            retained the proceeds collected in rent rather
drugs and cultivation of controlled substances.           than paying the lenders. His actions caused the
The individual had pleaded guilty to the charges,         loans to go into default and led to subsequent
after approximately 10 pounds of marijuana were           foreclosure action by the lenders. During the
seized at her residence during the execution of a         time the properties were being rented, the
Federal search warrant by VA OIG agents. The              individual stalled foreclosure action by filing
controlled substances were discovered during a            multiple bankruptcies under fictitious names,
search for records and other evidence of fraud            and laundered the illegal proceeds through bank
against VA. The case was the result of a joint VA         accounts. The individual faces a maximum
OIG, Postal Inspection Service, and state                 sentence of 20 years’ imprisonment, a maximum
employment department investigation into                  fine of $500,000, and court mandated restitution.




                                                     15
                                                                                Office of Investigations

Beneficiary Fraud                                        indicted by a Federal grand jury on one count of
                                                         theft of Government property. A joint VA OIG
Employee Misconduct                                      and FBI investigation disclosed that, while
                                                         employed at VA, the individual created a
• After a lengthy jury trial, three individuals          fictitious veteran; prepared a bogus VA claims
formerly employed as VA Regional Office                  file; and awarded this fictitious veteran benefits
(VARO) veterans benefits counselors were                 for service connected disabilities. The
found guilty in U.S. District Court of conspiracy        individual then opened a savings account in the
to defraud VA. A joint VA OIG and FBI                    name and social security number of the fictitious
investigation, with the assistance of the VA OIG         veteran and had the benefit checks electronically
Office of Audit, determined that six VARO                deposited into that account. The indictment
employees had embezzled over $1 million                  alleges that every month the individual withdrew
dollars from VA. An earlier indictment charged           almost the entire amount of the check in cash.
that the six individuals, while employed as              He received over $624,000 in VA benefits in the
benefits counselors and under the guise of               name of this fictitious veteran. He was arrested
providing assistance to veterans, submitted              as he withdrew $10,000 from the account.
fraudulent claims for medical expenses. They             Numerous documents found in his possession
then demanded a kickback of a portion of the             identified him as the fictitious veteran.
payments from the veterans. Veterans’ claims
examiners processed and approved the claims
based on the false information provided in the           Compensation & Pension Benefits Fraud
scheme. Three other employees previously
pleaded guilty to the charges. Sentencing for all        • An individual was indicted in U.S. District
six conspirators is pending. This is the second          Court for forgery of the endorsement on four
major investigation involving fraudulent medical         U.S. Treasury checks. The charges were the
claims submitted to a VARO to generate                   result of a joint VA OIG and SSA OIG
payments to poor veterans in which substantial           investigation which revealed that the individual
kickbacks were subsequently paid.                        continued to negotiate VA and SSA benefits
                                                         checks made payable to her mother after the
• A former VA Medical and Regional Office                mother's death in 1987. The loss to the
Center rating specialist was sentenced in U.S.           Government is approximately $95,000.
District Court to 90 days house arrest, 36
months probation, a $5,000 fine, and was                 • An individual pleaded guilty in U.S. District
required to make restitution of $20,494 to VA.           Court to one count of theft and was subsequently
The sentence was in response to a previous plea          sentenced to 6 months’ incarceration with work
of guilty to one count of mail fraud. A VA OIG           release privileges, 3 years’ supervised release, and
investigation revealed the individual had devised        was ordered to pay $35,702 in restitution. The
a scheme for obtaining VA benefits to which he           guilty plea resulted from a VA OIG investigation
was not entitled by making false representations         which determined that, for more than 6 years, the
as to his unemployability. This scheme caused            individual submitted eligibility verification reports
numerous VA checks to be delivered to him by             to VA which falsely stated she was not married
the U.S. Postal Service.                                 when, in fact, she had re-married, in order to
                                                         continue to collect widows’ pension benefits to
• A former VARO ratings specialist was                   which she was no longer entitled.
arrested by VA OIG special agents and later




                                                    16
                                                                               Office of Investigations

• An individual employed as a national                   funds and was sentenced to 3 years’ supervised
service officer with the Disabled American               probation and was ordered to pay $68,122 in
Veterans (DAV) was interviewed by VA OIG                 restitution to VA. A VA OIG investigation
agents regarding his acceptance of funds from a          uncovered that the individual, the daughter of the
veteran in exchange for assisting the veteran in         widow of a deceased veteran, converted to her
submitting a claim for VA benefits. The                  own use DIC funds electronically deposited into a
individual confessed to taking $500 from the             joint account she held with her mother, who died
veteran and, after the interview, admitted his           in May 1986.
actions to his supervisor. After receiving the
information, the DAV terminated his                      • The daughter of a VA DIC benefits recipient
employment. Additional reviews are being                 pleaded guilty in U.S. District Court to one count
conducted to determine if other veterans were            of theft of Government funds in response to the
victims of this scheme.                                  filing of a criminal information. A VA OIG
                                                         investigation disclosed the daughter failed to
• An individual was indicted by a Federal                notify VA of her mother's death in November
grand jury on two counts of making false                 1989 and continued to spend electronically
statements to the Government. A joint VA OIG             deposited funds totaling $54,574. Sentencing is
and SSA OIG investigation disclosed that, for            pending.
approximately 4 years, the individual submitted
false claims to VA for service connected                 • An individual was sentenced in U.S. District
disability, claiming that he was unemployable            Court to 6 months’ home confinement with
when, in fact, using a false name and social             electronic monitoring, 5 years’ probation, and
security number, he was employed as a                    ordered to pay $103,116 restitution to VA. A
construction worker. Loss to the Government is           VA OIG investigation disclosed that, over a 15-
in excess of $40,000.                                    year period, the individual converted for his
                                                         personal use more than $100,000 in DIC
Dependency & Indemnity Compensation                      benefits paid to his deceased mother.
(DIC) Benefits Fraud
                                                         • An individual employed as a VAMC
• An individual was sentenced in U.S. District           housekeeping aide pleaded guilty in U.S.
Court to 5 months’ imprisonment, 5 months’               District Court to one count of theft of
home confinement, 2 years’ probation, and was            Government funds and was sentenced to 5
directed to pay restitution to VA, after pleading        months’ incarceration, 5 months’ home
guilty to four counts of wire fraud in connection        confinement, and 36 months’ supervised
with the theft of $83,680 in VA compensation             probation. A VA OIG investigation revealed
benefits. She admitted during a VA OIG                   that, for almost 15 years, he had improperly
investigation that she made no effort to notify          converted VA DIC benefits issued to his
VA of the death of her mother, a VA                      deceased mother. The total amount of funds
beneficiary, and continued to withdraw                   converted was more than $86,000.
compensation benefits disbursements that were
electronically deposited into the mother’s bank          • An individual was indicted in U.S. District
account.                                                 Court on 21 counts of theft of Government
                                                         property, 1 count of forgery, and 8 counts of bank
• An individual pleaded guilty in U.S. District          fraud. A VA OIG investigation disclosed that,
Court to charges of conversion of Government             over a 6-year period, he fraudulently received and
                                                         negotiated his deceased mother's VA DIC




                                                    17
                                                                               Office of Investigations

benefits. The loss to the Government was                  $39,162, in response to a guilty plea to one
approximately $70,000.                                    count of theft of Government property. A VA
                                                          OIG investigation revealed the individual, the
• An individual was sentenced in U.S. District            widow of a deceased veteran, had improperly
Court to 6 months’ home confinement, 36                   collected VA widow's pension benefits after
months’ probation, and ordered to pay $27,330             failing to notify VA of her remarriage.
in restitution after pleading guilty to charges of
theft of Government funds. A VA OIG                       • An individual was arrested by VA OIG and
investigation revealed the individual failed to           FBI agents in connection with his fraudulent
notify VA of his mother’s death and, over a 3-            receipt of VA medical and pension benefits
year period, continued to access DIC benefits             totaling $54,000. The arrest was prompted by
funds totaling $27,332 that were electronically           his failure to respond to a letter from the U.S.
deposited into her bank account.                          Attorney’s Office requesting that he appear with
                                                          counsel to address charges pending against him.
• A former recipient of VA DIC benefits and               The result of evidence developed in a VA OIG
Social Security survivor benefits pleaded guilty          investigation revealed that he fraudulently
in U.S. District Court to a one-count criminal            received veteran’s benefits, even though he had
information charging her with theft of                    never served in the U.S. military.
Government property. Subsequently, she was
sentenced to 6 months’ home confinement, 5                • An individual pleaded guilty in U.S. District
years’ probation, and ordered to pay $48,455 in           Court to charges that he made false statements to
restitution. A joint VA OIG and SSA OIG                   VA to retain eligibility for VA pension benefits,
investigation disclosed the individual, the widow         and was subsequently sentenced to 5 years’
of a deceased veteran, remarried after the death          supervised probation and ordered to pay $22,932
of the veteran, but intentionally failed to report        in restitution to VA. The plea was in response to
the change in marital status to VA or SSA,                evidence disclosed during a VA OIG
which would have terminated her benefits. For             investigation, which showed the individual, who
more than 4 years, she continued to collect               was receiving VA benefits for himself and his
benefits to which she was not entitled.                   spouse for a disability unrelated to his military
                                                          service, had failed to report the receipt of
• An individual pleaded guilty in U.S. District           significant unearned income by his spouse.
Court to charges of theft of Government funds.            Investigation revealed his spouse had received
The guilty plea was the result of a joint VA OIG          an inheritance in excess of $450,000 and they
and FBI investigation in which the individual             had a net worth exceeding $278,000 during a
admitted that, for more than 12 years, she                period in which VA contributed pension benefits
converted to her own use VA DIC benefits                  to help defray their living expenses.
checks issued in the name of her deceased
mother. Loss to VA exceeds $97,000.
Sentencing is pending.                                    Fiduciary Fraud

                                                          • An individual, who functioned as legal
Pension Benefits Fraud                                    guardian for over 40 individuals and at least 2
                                                          disabled veterans, was arrested pursuant to a
• An individual was sentenced in U.S. District            criminal complaint filed in U.S. District Court
Court to 60 months’ probation and ordered to              charging her with embezzlement, fiduciary
make restitution to VA in the amount of                   fraud, and obstruction of justice. A VA OIG




                                                     18
                                                                               Office of Investigations

investigation revealed that, for more than 15             restitution of $2,633,638. Criminal action is
years, VA had paid her to provide room and                pending against the college staff.
board for a veteran and had allotted up to $2,000
per month, in her role as fiduciary for the
veteran. For a 2-year period during that time,
however, she did not care for the veteran herself,
but rather left the veteran with her daughter,
                                                          National Cemetery
allegedly a drug addict who lived in a crime              System
infested area, and paid the daughter $700 a
month to watch the veteran, keeping the                   A Federal grand jury returned an 11-count
remainder of the funds for her own use. She               indictment against two individuals, the director
allegedly siphoned money from the second                  of a VA national cemetery and a private
veteran’s bank account by hiring her son to act           contractor, who supplied sand and gravel to
as companion for the veteran, and then                    other contractors. Both have been charged with
depositing checks made payable to the son into            conspiracy to steal public property, conspiracy
her own personal bank account. The obstruction            to commit mail fraud, theft of Government
of justice charge stems from her attempts to              property, making false statements, and attempted
have individuals involved in the fraud lie to VA          witness tampering. The indictment alleges that
OIG special agents.                                       the two conspired to remove and sell
                                                          approximately 2,900 tons of sand from the
• An individual serving as fiduciary for his              cemetery.
grandmother, a recipient of VA DIC benefits,
was sentenced to 5 years’ probation, directed to
serve 250 hours community service, and pay                Office of Human
fines and restitution totaling $6,300. The
sentencing was the result of a guilty plea to
                                                          Resources and
charges that he embezzled funds paid to him by            Administration
VA for his grandmother’s benefit.
                                                          Three former VA warehouse laborers were
                                                          sentenced in U.S. District Court. The
Educational Benefits Fraud                                individuals had earlier resigned after pleading
                                                          guilty to stealing Government property. The
The civil division of a U.S. Attorney's Office is         first individual was sentenced to 36 months’
continuing to obtain civil settlements from               probation and ordered to make restitution of
student veterans who received VA benefits but             $500 to VA for his role in the thefts. The
did not attend regularly scheduled classes at a           second individual was sentenced to 6 months’
community college. Bribes were paid to faculty            home detention, 36 months’ probation, and was
staff, including the chairman of a department at          ordered to pay $5,657 in restitution to VA. The
the college, to ensure that high grades would be          third individual was sentenced to 3 years’
given with no class attendance required. Most             probation, 3 months’ work release, and
recently, the civil division has obtained                 restitution of $6,570. These individuals were
settlement agreements from 46 additional                  among several, including current and former VA
students who have agreed to pay $379,058 in               employees, identified in a joint VA OIG, FBI,
restitution. The total number of students who             and VA Office of Security and Law
have negotiated settlement agreements thus far            Enforcement long-term undercover investigation
with the civil division is 216, with total                during which more than $40,000 in stolen




                                                     19
                                                                               Office of Investigations

Government property was sold to undercover               The following are examples of laboratory work
agents, including items such as computers,               that was completed:
printers, and office furniture. Additional
sentencing actions are pending.                          • The Chairman, Board of Veterans' Appeals
                                                         (BVA) requested examinations of medical
                                                         records contained in the claims folder of a
OIG Forensic Document                                    veteran. A review of the medical records by
                                                         BVA indicated the possibility of alterations.
Laboratory                                               Laboratory examinations of handwriting,
                                                         typewriter entries, and office copier generated
The OIG operates a Forensic Document                     documents were conducted on 39 medical
Laboratory service for fraud detection. Requests         records. The laboratory examinations
routinely submitted to the laboratory include            determined that there had been 113 additions
handwriting analysis, typewriting, inks, paper,          and alterations of the medical records. The
photocopied documents, and suspected                     veteran was identified as the author of 11
alterations of official documents. During this           handwritten alterations and additions to the
reporting period, the Forensic Document                  medical records.
Laboratory received 1,214 documents from
various non-OIG sources that required 3,161              • The Federal Emergency Management
laboratory examinations. The laboratory                  Agency (FEMA) requested laboratory
received 521 additional pieces of evidence in 5          examinations of documents that involved
OIG criminal investigations that required 1,362          allegations that laborers of a federally funded
laboratory examinations. There were a total of           public works contract were ordered to kickback
34 forensic laboratory reports issued during this        up to 50 percent of their wages to the contractor.
semiannual period.                                       The federally funded project consisted of
                                                         $1.5 million in FEMA and Federal Highway
There were 33 laboratory cases completed for             Administration funds for damage repairs
the period as follows:                                   following the 1994 Northridge earthquake.
                                                         There were 623 pieces of evidence examined in
Laboratory Cases for the Period
                                                         this joint FEMA OIG and DOL OIG
                                     Cases
          Requester                                      investigation. The laboratory examinations
                                   Completed
                                                         identified the president of the corporation and
OIG Office of Investigations           5                 two co-defendants as the authors of handwritten
Regional Offices                        23               entries on 172 pieces of evidence.
VA Top Management                         2
                                                         • VA OIG investigated a veteran who
Security and Law                                         received payments for home health care through
                                          1
Enforcement                                              the VA fee basis program. On some of the same
U.S. Small Business                                      dates the veteran was being paid by VA for
                                          1
Administration OIG                                       home health care, he was hospitalized; the cost
Federal Emergency                                        for this was paid by Medicare. Laboratory
Management Agency OIG                     1              examinations were conducted to determine the
and DOL OIG                                              validity of invoices submitted and to establish
                                                         evidence of the double billing. The examination
           TOTAL                        33
                                                         identified the veteran and his daughter as the
                                                         authors of endorsements or handwritten entries




                                                    20
                                                     Office of Investigations

on 17 questioned U.S. Treasury checks and
invoices for fee basis services. When
confronted with the results, the daughter
admitted that she had known it was double
billing. The case is pending judicial action.




                                                21
     Office of Investigations




22
OFFICE OF AUDIT
Mission Statement                                         Outcome
                                                          • Made recommendations to enhance
                                                          operations, correct deficient areas and effect
    Improve the management of VA programs
                                                          $370 million in monetary benefits.
    and activities by providing our customers
    with timely, balanced, credible, and
                                                          Cost Effectiveness
    independent financial and performance
                                                          • Received a return of $46 in monetary
    evaluations that address the economy,
    effectiveness, efficiency, financial, and             benefits for every dollar spent.
    internal control of VA operations, and that
    identify constructive solutions and                   Timeliness
    opportunities for improvement.                        • Completed 16 projects in an average of 392
                                                          calendar days.

Resources                                                 Customer Satisfaction
                                                          • Achieved a customer satisfaction survey
The Office of Audit had 170 FTE assigned in               rating of 4.2, on a scale of 5, for reports issued
VACO and 5 field offices throughout the                   during the period.
country. The following chart shows the
percentage of resources utilized in auditing each         Audits completed during the period identified
of VA’s major program areas.                              opportunities to improve services to veterans,
                                                          and identified savings that could be used to
                                                          provide more and better service. For example,
                                                          our evaluation of VHA’s Medical Care Cost
                                                          Recovery program concluded that VHA can
            A&MM           Fin.Mgmt.
                                                          enhance program recoveries by over $83
             19%              34%                         million, providing additional funds to expand or
                                                          improve medical services to patients. Our audit
                                                          of the Pathology and Laboratory Medicine
             VHA
                          IRM                             Service found that opportunities exist for VHA
             21%                                          to increase savings by an estimated $32 million
                      VBA 8%
                      18%                                 annually by taking advantage of its purchasing
                                                          power to obtain chemistry tests at a lower cost.
                                                          An audit of VA’s Workers Compensation
                                                          program identified ways VHA could reduce
                                                          program costs by about $247 million, making
                                                          these funds available for direct service-to-client
Overall Performance                                       purposes.

                                                          Following are summaries of some of the audits
Output
                                                          done during the reporting period by VA
• Issued 20 program and financial audits and              component. We discuss VHA, VBA, Office of
evaluations for an output efficiency of one report        Management, Office of Human Resources and
per 4.2 FTE.                                              Administration, Office of Information and
                                                          Technology, and multiple office action.




                                                     23
                                                                                           Office of Audit

                                                         some program areas in which VHA could
Veterans Health                                          improve operations.
Administration
                                                         We issued three reports which addressed the
                                                         need to: (i) reduce procurement costs for
Resource Utilization                                     chemistry tests by consolidating facility
                                                         workloads ($32 million annually), (ii) reallocate
Issue: Management of Pathology and                       unused laboratory instruments procured for the
   Laboratory Medicine Service (PLMS).                   Mobile Laboratory initiative ($10.2 million), and
Conclusion: VHA is improving                             (iii) capture unreported workload representing
   operations of PLMS.                                   $5 million in resources. The audit also found
Impact: Improved quality of care and                     that PLMS needed to monitor quality control
   better use of funds.                                  testing, staffing, and send-out tests more closely.
                                                         We estimated that over $2 million annually
We conducted a series of audits of VHA’s                 could be saved by increasing oversight over the
laboratory operations during FYs 1996-1998.              cost of quality control testing.
The overall objective of these audits was to
determine whether pathology and laboratory               We recommended the Under Secretary for
services were provided in an economical and              Health take action to ensure that: (i) the cost of
efficient manner. The mission of PLMS is to              laboratory quality control testing is more
provide medical diagnostic laboratory testing            aggressively monitored, (ii) PLMS staffing is
and transfusion functions at all VHA medical             assessed by Veterans Integrated Service
centers and outpatient clinics.                          Network (VISN) Directors to ensure that all
                                                         positions are justified, and (iii) the costs of tests
During FY 1997, PLMS employed                            sent out by the laboratory are analyzed to ensure
approximately 7,200 employees nationwide, had            that it is more cost-effective to send out the tests
a budget of over $570 million, and reported              than perform them in-house. The Under
performing over 105 million diagnostic and               Secretary for Health concurred and provided an
research related tests. Thus, PLMS represents a          acceptable action plan in response to our
significant utilization of resources and has an          findings, recommendations, and monetary
important role in the provision of medical care          benefits. We consider all issues in the report
to VHA’s veteran population.                             resolved. (Summary Report: Audits of
                                                         Pathology and Laboratory Medicine Service,
Overall, we concluded that PLMS was generally            8R3-A01-149, 9/30/98)
operated in a satisfactory manner. Audit results
showed that laboratory tests were performed
timely, and that all laboratories and blood banks
were accredited. Quality control tests were              “The information that you have shared
routinely performed to ensure accurate test              with us has been very useful as we
results, repetitive testing had been reduced, and        prioritize opportunities for improvement,
laboratory supplies inventories were managed to          and we appreciate the cooperative
prevent waste. Additionally, VHA undertook               efforts of your auditors.”
several new initiatives to improve PLMS
operations, including implementing a new                                   Under Secretary for Health
workload reporting system and developing new
procurement strategies. However, we identified




                                                    24
                                                                                        Office of Audit

Issue: Cost-per-test leases and reagent                  acceptable action plan. (Audit of Cost-Per-Test
   rental contracts.                                     Leases and Reagent Rental Contracts in PLMS,
Conclusion: VA can reduce laboratory                     8R3-A01-101, 5/13/98)
   costs by maximizing volume
   discounts and obtaining lower prices
   for chemistry tests.                                  “Your observations have been very
Impact: Better use of $32 million.                       helpful in identifying improvement
                                                         opportunities.”
The audit was conducted to evaluate the cost-
                                                         “We appreciate the cooperative efforts of
effectiveness of using vendor-owned chemistry
                                                         your auditors in fully discussing with us
analyzers to perform laboratory tests. VISNs
                                                         all issues identified by VHA regarding
were using blanket purchase agreements (BPAs)
                                                         report conclusions.”
to save about $8 million annually in acquiring
chemistry analyzers and associated supplies, but
                                                                          Under Secretary for Health
some VAMCs did not participate in BPAs, and
consequently did not lower costs for non-routine
tests compared to prior years.
                                                         Issue: Medical Care Cost Recovery
Among those VAMCs that used BPAs, most did                  (MCCR) program.
not achieve maximum allowable discounts. In              Conclusion: VHA can significantly
addition, VHA did not monitor contract costs, or            increase MCCR recoveries.
survey the Department of Defense (DoD) or                Impact: Increase MCCR recoveries by
non-federal hospital contract costs. As a result,           $83 million.
VHA was paying more than some private
hospitals with lower volumes paid for the same
                                                         The audit was conducted at the request of the
tests.
                                                         Chairman, House Committee on Veterans
                                                         Affairs, to determine whether VISNs have
Opportunities exist for VHA to increase savings
                                                         successfully implemented cost recovery
by an estimated $32 million annually by taking
                                                         programs and to identify opportunities to
full advantage of its purchasing power to obtain
                                                         enhance recoveries. In FY 1997, the Under
chemistry tests at a lower cost. Similarly, DoD
                                                         Secretary for Health established a minimum
could potentially save over $25 million by
                                                         VHA collection goal of $544.1 million.
improving its procurement practices. We
recommended the Under Secretary for Health:
                                                         We concluded VHA could enhance MCCR
(i) advise VISNs of the benefit of multi-facility
                                                         recoveries by requiring VISN Directors to
agreements that include nearby DoD facilities to
                                                         manage MCCR program activities more
maximize volume-based discounts, (ii) instruct
                                                         actively. We recommended the Under Secretary
VISNs to perform cost-studies to determine the
                                                         for Health require the Chief Network Officer to
optimal configuration of equipment necessary to
                                                         improve program activities by establishing
obtain laboratory tests at the lowest cost, (iii)
                                                         performance standards for staff involved in all
ensure contracting officials make vendor
                                                         phases of MCCR activities, monitoring
proposals for cost-per-test agreements more
                                                         performance results, taking action to improve
uniform to allow meaningful price comparisons,
                                                         performance gaps, and incorporating other
and (iv) survey prices charged hospitals to
                                                         billing and collection improvements. The Under
identify the lowest vendor prices. The Under
                                                         Secretary for Health concurred with our findings
Secretary for Health concurred and provided an




                                                    25
                                                                                          Office of Audit

and provided an acceptable implementation                We recommended these portions of the project
plan. (Audit of the Medical Care Cost Recovery           be cancelled. The VAMC Director agreed with
Program, 8R1-G01-118, 7/10/98)                           our recommendations and provided acceptable
                                                         implementation plans. (Audit of Energy
                                                         Construction Project at VAMC Ann Arbor,
Facility Management                                      Michigan, 8R5-D02-133, 8/12/98)

Issue: Ensuring that construction                        “We appreciate the efforts by the review
   projects are justified and construction               team and their subsequent
   funds are used to meet agency goals.                  recommendations.”
Conclusion: Cost effective alternatives
   were available for some projects.                                       Director, VAMC Ann Arbor
Impact: Better use of $1.6 million.

We audited four nonrecurring maintenance                 Road and Parking Lot Construction, VA
projects as part of an ongoing national audit of         Domiciliary White City
Minor Construction and Nonrecurring
Maintenance.                                             We conducted the audit to determine if a
                                                         construction project to build a road and pave a
Energy Management Project - VAMC Ann                     gravel parking area was necessary or whether
Arbor                                                    cost-effective alternatives existed that would
                                                         provide the required service. The project called
We conducted the audit to determine whether an           for building a new road adjacent to an existing
energy construction project was necessary or             gravel parking lot adjacent to a baseball field, to
whether alternatives existed that would provide          create a second entrance to the domiciliary. The
the required services in a more cost-effective           new road would be paved and would include
manner. Results showed that elements of the              curbs and gutters, sidewalks, and lighting. The
overall energy management project were                   project also included plans to repair existing
unnecessary or not cost effective.                       roadways and parking lots, including the parking
                                                         lot serving the baseball field.
Overall project plans included 20 energy-saving
measures identified in a Department of Energy            We concluded that the portion of the project to
study. One element involved installing                   pave the baseball field parking lot was not
occupancy sensors throughout the medical                 necessary, and the estimated cost of $243,300
center and another involved installing a variable        could be better used for other purposes. The
air volume system to improve the efficiency of           existing gravel parking lot was in good condition
the heating, ventilating, and air conditioning           and met the needs of the facility. We
system in research rooms. We found the cost to           recommended the Domiciliary Director
install occupancy sensors would not be recouped          eliminate the portion of the project to pave the
in energy savings and encouraging staff to turn          baseball field parking lot. The Domiciliary
the lights off was a less costly alternative that        Director agreed with our recommendation and
could achieve much of the energy savings                 provided acceptable implementation plans.
anticipated by the project. Also, the cost to            (Audit of Nonrecurring Maintenance
install the variable air system in research rooms        Construction Project at VA Domiciliary White
with fume hoods would not be recouped in                 City, Oregon, 8R5-D02-127, 7/24/98)
energy savings.




                                                    26
                                                                                           Office of Audit

Adult Day Care Center, VAMC Asheville                    Optifill-II automated prescription-filling system.
                                                         We concluded the cost to renovate the
We conducted the audit to determine whether a            pharmacy, estimated at $936,050, could be
construction project to add an Adult Day Health          better used for other purposes.
Care (ADHC) was necessary or whether
alternatives existed that would provide services         Audit results showed the pharmacy workload
in a more cost-effective manner. We concluded            did not justify the need for automated
the project was not necessary and continuing to          prescription filling equipment. Implementation
contract for ADHC services would be more cost-           of 90-day refills and the Consolidated Mail
effective.                                               Outpatient Pharmacy program had reduced the
                                                         pharmacy workload. Current staff was
Plans called for a private firm, already under           completing prescriptions in a timely manner, and
contract to the medical center, to provide off           dispensing was not significant.
campus ADHC services and to also operate a
campus based ADHC program in renovated                   We recommended the VAMC Director cancel
medical center space. To accommodate the                 the project and return the Optifill-II equipment
ADHC program, management planned to                      to the manufacturer or make the equipment
renovate space and relocate other services within        available for use by another VAMC which can
the building proposed for the ADHC program.              demonstrate a need for the equipment. We also
The ADHC contractor would offer the medical              recommended the Director, VISN 21 ensure that
center a reduced rate for providing ADHC                 needs are thoroughly addressed when projects
services in the renovated space.                         are submitted for approval.

We concluded that project was not cost effective         The Director, VISN 21 agreed that needs
because there were only 13 veterans currently            assessments are necessary and stated they have
using this program. In addition, the contractor          mechanisms in place to screen high cost
was planning to open ADHC centers in several             purchases for appropriateness. However, he
other locations within the city in the next few          stated they would consider whether changes to
years, making ample resources available should           the process are needed based on our comments.
additional veterans become eligible for the
program.                                                 The VISN Director did not agree to cancel the
                                                         project, but he proposed an alternative to reduce
We recommended canceling the project and that            the scope and cost of construction by $115,950.
VISN officials ensure current needs have been            He provided additional justification for
assessed when medical centers submit projects            purchases of the equipment and stated
for approval. The Director, VISN 6 agreed with           alternative action (cancellation of the equipment
our recommendations and provided acceptable              purchase contract) is not feasible at this late date
implementation plans. (Audit of Adult Day                due to an associated monetary penalty.
Care/Clinics Construction Project at VAMC
Asheville, North Carolina, 8R5-D02-107,                  We reviewed the additional justification
5/28/98)                                                 provided, and while some of the Director’s
                                                         points are valid, we remain unconvinced there is
Pharmacy Renovation, VAMC San Francisco                  adequate workload to justify purchasing the
                                                         automated equipment. However, since the
The project called for renovation of the                 contract cannot now be economically cancelled,
outpatient pharmacy and installation of an               we accepted the reduction in scope as the best




                                                    27
                                                                                           Office of Audit

option available. We consider all issues                  first component. A second report will be issued
resolved. (Audit of Pharmacy Renovation                   at a later date to address the second component.
Project at VAMC San Francisco, California,
8R5-D02-139, 9/10/98)                                     Our analysis of FY 1997 data for the three VBA
                                                          performance measures found that internal
                                                          controls did not prevent invalid data from
                                                          processing. VARO personnel were able to input
Veterans Benefits                                         or change data to show better timeliness than
Administration                                            actually achieved, and inclusion of pre-discharge
                                                          processing times distorted the average
                                                          processing times reported under GPRA. Pre-
Delivery of Benefits and Services                         discharge processing refers to a new program to
                                                          begin processing claims before a veteran is
Issue: Data integrity for veterans claims                 discharged from active military duty.
   processing.
Conclusion: Increased management                          Data used to calculate the three performance
   oversight can improve data integrity                   measures lacked integrity because input
   for selected VBA Government                            commands could be used to show better
   Performance and Results Act (GPRA)                     timeliness than actually achieved, and VBA did
   performance measures.                                  not retain transaction data. The temporary
Impact: Enhanced customer service.                        nature of transaction data also makes VBA
                                                          vulnerable to reporting errors and system
At the request of the Assistant Secretary for             manipulation. We also concluded that pre-
Policy and Planning, we initiated a multi-stage           discharge processing time should not be
audit to examine the integrity of the data used           incorporated into the average processing times
for GPRA reports. This is the first in a series of        used for GPRA reports.
audits to evaluate the validity, reliability, and
integrity of data relating to some of VA's most           Since transaction data are routinely deleted, they
critical GPRA performance measures.                       are not available for management review and
                                                          oversight. We concluded that availability of
This audit assessed the accuracy of data                  transaction data in conjunction with an onsite
supporting three VBA GPRA performance                     inspection program can identify system
measures: (i) average days to complete original           manipulations or errors and help to ensure the
disability compensation claims, (ii) average days         accuracy of GPRA data.
to complete original disability pension claims,
and (iii) average days to complete reopened               We recommended that VBA: (i) collect and
compensation claims.                                      analyze historical transaction data to identify
                                                          questionable or suspect transactions, (ii) institute
The overall project examined data processing              onsite field inspections at VAROs, and (iii)
systems to determine whether data were                    establish policy for reporting processing time on
processed accurately and whether there were               pre-discharge processing activities. The Under
adequate controls to prevent bad data from                Secretary for Benefits concurred with the
processing. We also compared source                       recommendations and provided acceptable
documents to data input into the automated                implementation plans. (Audit of Data Integrity
system to determine if the data had been                  for VBA Claims Processing Performance
accurately transferred. This report addresses the




                                                     28
                                                                                        Office of Audit

Measures Used for Reports Required by the
GPRA, 8R5-B01-147, 9/22/98)
                                                        Office of Management
                                                        VA’s Financial Statements
Other Beneficiary Issues
                                                        Issue: VA’s Consolidated Financial
Issue: Reasonableness and accuracy of                      Statements (CFS) for FYs 1997 and
   administrative expenses.                                1996.
Conclusion: Administrative expenses                     Conclusion: Some assets may not be
   reported for FY 1997 were reasonable                    adequately protected and resources
   and accurate in all material respects.                  may not be properly controlled.
Impact: Assuring program integrity.                     Impact: Improved stewardship of VA
                                                           assets and resources.
At the request of the VA Insurance Service, we
evaluated FY 1997 Life Insurance Program                Our audit of VA’s CFS for FY 1997 and 1996
administrative expenses. The purpose of the             included a qualified opinion concerning balances
evaluation was to assess the reasonableness and         for receivables, liabilities for loan guarantees,
accuracy of administrative expenses incurred            and resources payable to U. S. Treasury
and reported for VA’s Life Insurance Programs,          contained in VA’s Statement of Financial
and verify the allocation methodology used to           Position, and related items in the Statements of
assign costs among insurance programs.                  Operations and Changes in Net Position, Cash
                                                        Flows, and Budgetary Resources and Actual
We determined that FY 1997 administrative               Expenses. In each of these areas, we were
expenses totaling $37.5 million were reasonable         unable to satisfy ourselves as to the recorded
and accurate in all material respects. Also, the        balances in these accounts because of inadequate
allocation methodology used to assign costs             accounting records. Nor were we able to satisfy
among insurance programs was proper. We did             ourselves as to the balances by other auditing
not make recommendations. (Evaluation of the            procedures.
Life Insurance Programs’ Administrative
Expenses, 8R1-B12-130, 7/31/98)                         Our report on internal control structure discusses
                                                        five material weaknesses concerning VA-wide
                                                        information system security controls, Housing
                                                        Credit Assistance (HCA) program financial
“An excellent example of cooperation                    reporting, HCA program direct portfolio loans,
with program staff. The final report                    HCA program loan sales accounting, and
provides important independent                          medical facility receivable balances. We made
verification that our expenses and                      recommendations addressing these weaknesses
allocations are appropriate and                         and believe the issues in these five areas should
accurate.”                                              be considered for inclusion as material
                                                        weaknesses in the Department’s Federal
               Customer Survey Response                 Managers Financial Integrity Act reporting.

                                                        Our report on compliance with laws and
                                                        regulations discusses three noncompliance
                                                        issues. One dealt with noncompliance with
                                                        Federal Financial Management Improvement




                                                   29
                                                                                       Office of Audit

Act requirements concerning HCA program                 No conditions were noted that had a material
financial management information systems and            effect on the FY 1997 CFS, but correction of the
VA-wide information system security. We also            conditions is considered necessary for effective
identified noncompliance with two other laws            operations. Where needed, appropriate
concerning requirements for charging interest           adjustments were made to financial statements.
and administrative costs on compensation and            (i. Management Letter, Fiscal Year 1997
pension accounts receivable, and requirements           Consolidated Financial Statements – Veterans
for funding minimum staffing levels in the VA           Benefits Administration Finance Center Hines,
OIG that, while not material to the financial           IL, 8R4-G10-128, 7/29/98; ii. Management
statements, warranted disclosure.                       Letter, Fiscal Year 1997 Financial Statements,
                                                        VA Life Insurance Programs and Selected Loan
Except for the noncompliance with Federal               Guaranty Program Financial Activities, 8R1-
Financial Management Improvement Act                    G10-106, 5/29/98; iii. Accuracy of Property,
requirements, the report concludes that for the         Plant, and Equipment Financial Information,
items tested, VA complied with those laws and           8AF-G10-102, 5/27/98; iv. Management Letter –
regulations materially effecting the financial          Expenditure Transactions, 8AF-G10-141,
statements.                                             9/10/98); and v. Management Letter – Payroll
                                                        Transactions, 8AF-G10-140, 9/10/98)
The Acting Assistant Secretary for Management
provided comments indicating the Department
was addressing the issues we reported. (Report
of Audit of VA Consolidated Financial
                                                        Office of Human
Statements for FYs 1997 and 1996, 8AF-G10-              Resources and
103, 5/18/98)
                                                        Administration
Issue: Financial Management.
Conclusion: Five management letters                     Issue: Government Travel Card
   were issued to assist the Department                    Program.
   in improving financial management.                   Conclusion: The program was efficiently
Impact: Improved financial reporting                       operated, and VA initiatives will
   and control.                                            improve minor problems identified.
                                                        Impact: Better serve the needs of VA.
As part of the CFS audit, we issued five
management letters addressing financial                 The purpose of this audit was to determine
reporting and control issues. The management            whether the Program was effectively
letters provided Department managers additional         implemented, operating efficiently, and meeting
observations and advice that, while not material        program objectives. The program was
in relation to the CFS, will enable the                 developed to improve the purchase of
Department to improve day-to-day accounting             transportation services, subsistence, and other
operations and controls. The management                 travel expenses, better serve the needs of VA
letters contained observations concerning: (i)          travelers, and improve cash management and
VBA Finance Center operations; (ii) life                administrative procedures. As of September
insurance program accounting activities; (iii)          1997, VA had over 21,600 active individual
accuracy of property, plant, and equipment              cardholders and over 300 government travel
reporting and controls; (iv) expenditure                accounts. Individual and government
transactions; and (v) payroll transactions.




                                                   30
                                                                                          Office of Audit

transactions during FY 1995 through 1997
totaled over $126 million.
                                                          Office of Information and
                                                          Technology
We found the program better served the needs of
VA and improved cash management by:
reducing travel advances, reducing                        Security Controls
administrative workload associated with issuing
and administering cash advances and                       Issue: Security controls for the
government transportation requests, and                      Integrated Data Communications
providing management more information on                     Utility (IDCU).
how travel funds were being spent.                        Conclusion: Security controls need to
                                                             be strengthened to ensure that IDCU
Audit results showed the need to: provide more               operations are adequately protected.
timely processing of travel vouchers and                  Impact: Improved ADP security.
payment of government travel account invoices,
make better use of reports provided by the credit         The audit evaluated the adequacy and
card contractor to monitor the program at both            appropriateness of security controls for the
VACO and individual facilities, and increase use          IDCU. The IDCU is a Department-wide data
of travel cards to obtain advances. VA program            communications network enabling VA users to
officials have initiated or plan to take action in        connect from one automated system to another
each of these areas, and therefore, we made no            and to access various VA databases. Over 500
recommendations. (Audit of the Government                 facilities are currently connected to the IDCU,
Travel Card Program, 8R3-G01-123, 7/14/98)                enabling customers at each of these facilities to
                                                          communicate with each other, and to access and
“The Office of Administration is pleased                  transmit key information and data in support of
with the results of this report.”                         VA’s mission of providing patient care and
                                                          delivery of benefits to the nation’s veterans.
            Deputy Assistant Secretary for
                           Administration                 Maintaining appropriate network security
                                                          measures is important given the significance of
                                                          the financial transactions and data that is
                                                          transmitted over the IDCU annually associated
                                                          with VA’s $40.4 billion budget. Accordingly,
                                                          the IDCU needs to be protected from security
                                                          breaches, interruption of service, unauthorized
                                                          access, inappropriate disclosures, or destruction
                                                          of data.

                                                          The audit identified key security enhancements
                                                          that would help make the IDCU more secure and
                                                          ensure continuity of operations. Some of these
                                                          enhancements were identified in prior OIG
                                                          security audits at VA Data Processing Centers.
                                                          Improvements were needed in: (i) physical
                                                          security, (ii) controlling access to the IDCU
                                                          from remote sites, (iii) establishing employee




                                                     31
                                                                                        Office of Audit

access clearances for contractors and VA staff,         million. We estimated that in Charge Back Year
and (iv) security controls to protect sensitive         (CBY) 1996 there were 567 fraudulent WCP
information while in transit from site to site.         cases totaling about $9 million.
VA should continue to monitor the security of
VA Internet gateways as a Management Control            We concluded that WCP costs could be reduced
Internal High Priority Area. In addition, VA            by conducting more effective case management
needs to ensure user billings provide sufficient        to identify employees who can be brought back
information to allow customers to accurately            to work or who should be removed from the
assess their actual IDCU usage and reconcile            rolls. Improved case management could have
annual customer billings.                               avoided $17.5 million in WCP costs during
                                                        CBY 1996 and could avoid future costs of
The Acting Assistant Secretary for Management           $246.9 million over the projected 18 year
concurred with the findings and                         lifetime of claimants on the rolls.
recommendations and provided appropriate
implementation actions. (Audit of Security              The audit also identified the following additional
Controls for the IDCU, 8D2-G07-066, 4/23/98)            areas where program management could be
                                                        enhanced by: (i) collecting and using
                                                        “Continuation of Pay” cost information as a
“These findings and recommendations                     management tool for monitoring WCP cost and
will assist us during our decision making               employee health and safety issues, (ii)
process.”                                               establishing more comprehensive WCP policies
                                                        and procedures that take advantage of best
          Deputy Assistant Secretary for                practices and proven case management methods
     Information Resources Management                   identified in our review, and (iii) providing all
                                                        VHA facilities with access to the Workers
                                                        Compensation Management Information System
                                                        and completing certain modifications to enhance
Multiple Office Action                                  use of the system.

                                                        The Assistant Secretary for Human Resources
Other Financial Control Issues                          and Administration and the Acting Assistant
                                                        Secretary for Management concurred with the
Issue: Workers’ Compensation Program
                                                        report recommendations and provided
   (WCP) cost.
                                                        appropriate implementation actions. (Audit of
Conclusion: Improved management can
                                                        VA’s Workers’ Compensation Program Cost,
   lessen VA’s risk for abuse, fraud, and
                                                        8D2-G01-067, 7/1/98)
   unnecessary payments.
Impact: Reduction of program costs by
   $247 million.

The audit was conducted to identify
opportunities to reduce costs associated with
WCP claims. During FY 1998, VA payments
for WCP costs to the Department of Labor
(administrator of the Federal Employees’
Compensation Act) will total about $140.8




                                                   32
                                                          Office of Audit

Issue: VHA’s management of non-
   medical care cost recovery
   receivables.
Conclusion: VHA is acting on
   $225 million of receivables.
Impact: Improved collection of
   receivables.

We reviewed VHA management of receivables
other than those related to recovery of medical
care costs. Results showed that a significant
portion of the $225 million balance in non-
medical care receivables may not be collected.
VHA’s Chief Financial Officer has set out a plan
to have VAMCs review these accounts and
determine which remain collectable. Those
accounts found to be collectable would be
subject to appropriate collection actions, and a
proper accounting would be made of the
remainder.

The VHA plan is appropriate and our tests
showed that implementation is progressing as
designed. Recommendations were made to
support their effort, which will result in
collections of almost $4 million at the 8 sites we
visited, and collect up to $70 million additional
at the 165 remaining sites. The Under Secretary
for Health and Acting Assistant Secretary for
Management agreed with our recommendations.
(Audit of VHA Actions on Accounts Receivable,
8AN-G01-117, 8/6/98)




                                                     33
     Office of Audit




34
OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                      Acutely Ill Inpatient Demographic Descriptors;
                                                       and an Oversight Analysis of VHA’s
                                                       Implementation of Selected Aspects of its
   Promote the principles of continuous
                                                       Patient Safety Improvement Policy. OHI also
   quality improvement to provide effective
                                                       strengthened its VHA quality of care oversight
   inspections, oversight and consultation to
                                                       by developing a more deliberative process for
   enhance and strengthen the quality of VA’s
                                                       selecting and assigning Hotline allegations,
   health care programs for the well-being of
                                                       which will ultimately improve our ability to
   veteran patients.
                                                       complete and report on these reviews more
                                                       promptly. We also established closer working
Resources                                              relationships with Veterans Integrated Service
                                                       Network (VISN) clinical managers in our
The Office of Healthcare Inspections (OHI) has         ongoing effort to strengthen the quality program
20 FTE assigned, all of whom work in OIG               assistance (QPA) review process. This
headquarters. These individuals are deployed           strengthened relationship helped us to use the
100 percent in healthcare inspections and              QPA effectively in the context of inspecting
evaluation issues.                                     several sensitive Hotline allegations at VAMCs.

Overall Performance

Output                                                 Veterans Health
• We published 15 final reports during the             Administration
reporting period.

Outcome                                                Nationwide Healthcare Program
• We made 33 recommendations, resulting in             Reviews
improving both clinical care delivery and
management efficiency.                                 Report: Demographic Descriptors of
                                                       VHA’s Acute Care Patient Population,
Customer Satisfaction                                  8HI-A28-105, 5/22/98
• Program managers’ satisfaction and
acceptance level of our work was an average of            Issue: Unique demographic,
4.4 on a 5.0 scale for the year.                          socioeconomic, and environmental
                                                          characteristics of the average VA
OHI inspectors have continued to emphasize the            inpatient.
need for VHA to strengthen its quality                    Conclusion: Hospitalized patients have
management infrastructure by developing and               problems that complicate their treatment.
pursuing a variety of quality management (QM)             Impact: Enhanced ability to plan patient
related projects and reports. These projects              accessibility and treatment strategies.
included reviews of VHA’s Deployment of QM
Staffing and Resources; an Analysis of the Ten         A 1995 OHI report showed that a significant
Most Frequent Substantiated Hotline Allegations        percentage of VHA patients, who were
over a 3-year Period; an Analysis of VHA               occupying acute care beds in 24 randomly
                                                       selected VAMCs on June 8, 1994, did not need




                                                  35
                                                                    Office of Healthcare Inspections

acute care. Nevertheless, OHI believed that               recommendation and provided positive
these patients were extremely chronically ill, and        comments as to VHA’s contemplated actions to
had other impairments that justified their need           address these issues.
for some level of care. This factor became more
important as VHA began to reduce beds and bed
days of care, and aggressively began to evolve            A Description and Analysis of OHI’s
from a hospital-based, specialized care model to          Most Common Findings in Hotline
one of ambulatory-based care with a primary               Inspections: Fiscal Years 1993-1995,
care emphasis.                                            8HI-A28-150, 9/28/98

This report summarizes and consolidates OHI’s                Issue: VHA employee behaviors and
findings and conclusions. It aimed at providing              health care practices engender
VHA planners and clinicians with information to              complaints to OIG’s Hotline.
develop strategic plans to enhance patient access            Conclusion: Stakeholders complain
to care and to rationally plan for the extended              mostly about how employees treated
care services that an increasing number of VHA               them, either clinically or personally.
patients need. The report is an analysis of                  Impact: Managers can focus remedial
selected demographic, socioeconomic, and                     efforts to areas and behaviors frequently
environmental descriptors of 499 patients whose              associated with stakeholder tensions.
care we reviewed in FY 1995. The review
analyzed variables that describe important                The OIG Hotline opens about 800 cases each
characteristics such as patients’ mortality,              year; these cases raise substantive health care,
admission frequency, length-of-stay,                      managerial, and fiscal concerns. OHI assigns
accessibility to VA care, availability and                high priority to accepting and inspecting
adequacy of social support systems, and                   congressional requests, cases that have major
patients’ nutrition risk.                                 medical implications, and serious cases that
                                                          VHA managers have not been able to resolve to
We found that about 32 percent of the 499                 the complainant’s satisfaction. In the 3-year
patients were so chronically infirm that they             period from October 1992 through September
succumbed to their illnesses within 18 months of          1995, OHI closed 230 hotline cases, 72 of which
their June 1994 episodes of inpatient care. We            resulted in formal reports with recommended
also found the average patient traveled more              corrective actions.
than 46 miles to obtain VA care, that 44 percent
of the patients had inadequate social support             This report analyzes the 122 substantiated or
systems to help them sustain an adequate                  partially substantiated allegations that we
lifestyle when they were not hospitalized, and            inspected and discussed in the 72 formal reports.
more than 80 percent were not adequately                  OHI inspectors substantiate or partially
nourished to sustain good health. We also found           substantiate about 25 percent of all of the
that VHA clinicians do not consistently record            allegations that they review. This represents
vital information about patients’ social support          only an extremely small portion of the millions
systems or their nutritional status – information         of employee/patient interactions that occur in
that is important in successfully maintaining             VHA healthcare facilities every year.
these patients in an ambulatory care status.              Nevertheless, it is important that VHA and
                                                          Department managers are aware of what issues
The Under Secretary for Health agreed with our            create difficulties or concerns for the people
report findings and consultative                          whom we serve – veterans and their families.




                                                     36
                                                                    Office of Healthcare Inspections

More than 58 percent of all substantiated                On October 25, 1995, the Deputy Under
allegations stem from patients and their family          Secretary for Health testified before the House
members.                                                 Veterans Affairs Committee that VHA would
                                                         develop a strong statistical analysis capability in
From our perspective, most complainants                  each VISN. The purpose of this statistical
express concerns about the manner in which               capability was to facilitate early detection of
VHA employees treated them, both from a                  adverse changes in selected clinical monitors
clinical and interpersonal standpoint. We found,         that may signal the onset of unwanted clinical
for example, that 28 percent of the substantiated        behaviors or practices that could adversely affect
allegations dealt with clinicians’ provision of          patient care.
inappropriate or incorrect treatment; 8 percent
pertained to delayed diagnoses or treatment; 5           OHI offered to assist VHA to establish a strong
percent involved lapses in patient and family            statistical capability. In that spirit, this particular
safety procedures, such as flawed infection              report offers VHA a tested statistical
control procedures; 12 percent involved verbal           methodology that OHI has successfully used to
or physical abuse or sexual harassment of a              identify subtle changes in health care quality
patient or family member; and 5 percent                  monitors long before other commonly used
identified impersonal or uncaring application of         methods can. This statistical method is based on
administrative procedures. The tenor of these            an analysis of time-series data, which OHI has
substantiated allegations emphasizes the need            found, by experience, to identify changes in
for VHA managers to continue to improve                  monitors very effectively. This is particularly
patient satisfaction and to resolve problems as          true for those monitors that track mortality very
they occur at the local level.                           early, and which far exceed the capability of
                                                         other commonly used health care monitors
The Under Secretary for Health agreed with our           which were unsuccessful in detecting any
findings and consultative recommendations and            variations in the monitoring data at all.
provided plans to disperse the findings to
VAMC and VISN managers in order to apprise               We believe, that if properly applied to existing
them of the improvement areas that they need to          VHA automated data bases, this statistical
emphasize to strengthen the manner in which              method will enhance VHA’s ability to have an
patients and other stakeholders are treated.             early warning system of unwanted changes in
                                                         selected quality management continuous
                                                         monitors. We did not make any
Suggested Supplementary Statistical                      recommendations in this particular report, but
Options for Monitoring Healthcare, 8HI-                  commend the statistical methodology to VHA
A28-151, 9/29/98                                         managers for their use.

    Issue: Need for prompt detection of
    adverse QM changes to ensure patient
    safety and care.
    Conclusion: OHI offers an alternative
    statistical methodology proven to detect
    changes in quality.
    Impact: The ability to detect adverse
    QM changes facilitates early detection
    and correction.




                                                    37
                                                                  Office of Healthcare Inspections

QPA Reviews                                             clinicians helped us to properly focus the
                                                        reviews to obtain and analyze the most useful
   Issue: VAMCs’ ability to provide optimal             information. The clinical managers who
   access to high quality, low cost, and                participated in the QPA development and
   timely health care.                                  refinement process, and participated in two such
   Conclusion: Managers are working                     reviews, fully supported the process
   collaboratively to reorganize the health
   care process to provide good, responsive             Reports: QPA Reviews, VAMCs Lyons,
   services, but the scope of changes often             NJ, and Washington, DC, 8HI-F03-125,
   negatively affects employee morale.                  7/16/98, and 8HI-F03-145, 9/17/98
   Impact: Managers are developing
   initiatives to provide good, accessible              During this reporting period, OHI completed
   care at an affordable cost.                          two QPA reviews. One of these reviews was
                                                        done in the context of inspecting and resolving a
Report: QPA Review Program Oversight                    variety of allegations about clinical and
Review Report and Analysis, 8HI-A28-                    administrative issues. This process not only
124, 7/14/98                                            allowed OHI inspectors to review critically the
                                                        events surrounding the allegations, it provided a
For more than 3 years, OHI has been developing          context in which to view the perceptions that led
a workable, credible methodology to review              to the allegations.
essential aspects of VAMC clinical operations
and patient treatment processes in an effort to         In both QPA reviews, OHI inspectors concluded
provide consultative recommendations to VHA             that medical center executive managers were
managers on ways to strengthen the manner in            working collaboratively to initiate programmatic
which they provide care to their veteran                changes that were designed to improve veterans’
clientele. This process is built on the                 access to high quality health care and were
administration of structured questionnaires to          developing and implementing strategies that
executive and mid-level managers, and large             reduced operating costs, and allowed them to
random samples of clinicians, patients, and             reprogram funds so that more money would be
operating level employees. The questionnaires           available for direct patient care.
elicit information that measures perceptions
about the quality, responsiveness, and                  In both cases, executive and mid-level managers
acceptability of health services that the               held positive attitudes about the changes that
particular medical center and its employees             were underway. Similarly clinicians were
provide to patients.                                    generally very supportive of the organizational
                                                        and operational changes that had occurred and
OHI actively solicited the assistance of leaders        believed that these changes had improved the
in all of the VAMCs in which we conducted               quality and accessibility of patient care. Patients
QPAs, to provide us with critical comments and          also had generally positive impressions about
suggestions that would help to make the QPA             the improvements in care, accessibility, and
process a meaningful and valuable tool for              employee attitudes that occurred in association
managers to use in improving their patient care         with the changes.
services. We also solicited support and
suggestions from the VHA’s VISN clinical                Notwithstanding these positive impressions, as
managers in order to ensure that VHA                    we reported in our previous semiannual report,
understood the process and that senior VHA              employees who responded anonymously to our




                                                   38
                                                                      Office of Healthcare Inspections

QPA questionnaires raised concerns that the                 ill-conceived, poorly designed medication
pace and scope of the many organizational and               delivery system that depended on the local
operational changes that have occurred have                 centralized computer system to authorize nurses
increased personal tensions and reduced                     to medicate patients. The complainant charged
employee morale. Employees appear to attribute              that this system resulted in increased numbers of
their concerns to uncertainties about job                   serious medication errors, was extremely
security, and perceived increased workloads or              frustrating to work with, required more time
insufficient staffing situations in their particular        than the previous system to deliver medications,
work areas. Executive managers at both                      and was initiated without nursing input or
VAMCs have established intensive                            consent.
communication initiatives to keep employees
and other stakeholders fully informed about                 Our inspection found that the VAMC’s
ongoing and contemplated organizational and                 automated medication delivery system had been
operational changes, but employees continue to              in place for about 1 year and that it was
hold negative impressions about the change                  operating effectively. We did not substantiate
process.                                                    the allegations that the system resulted in
                                                            increased numbers of serious medication errors.
OHI continues to be concerned that the issues of            To the contrary, the system prevents nurses from
degraded employee morale, and increased                     administering unauthorized medications unless
tensions in the workplace, have the potential to            the nurse overrides the system and administers
lead to diminished quality of care, lowered                 the drug in spite of electronic warnings.
patient satisfaction, or adverse patient incidents.         Incident reports that we reviewed showed that
Thus, we believe that VHA managers need to                  reportable medication errors occurred only when
seriously consider ways to alleviate these                  nurses ignored the system. Thus, the automated
employee problems.                                          system had been instrumental in virtually
                                                            eliminating serious medication errors.

                                                            The automated system actually does extend the
Healthcare Hotline Inspections                              time that nurses previously needed to administer
                                                            medications, because of the time that nurses
Inspection of Alleged Medication System                     need to check internal control points more
Problems, Colmery-O’Neil VAMC Topeka,                       carefully before they administer a drug. The
KS, 8HI-A28-111, 6/2/98                                     increased time is not appreciable, and nurses
                                                            told us that they easily accommodate the
   Issue: Automated medication dispensing                   additional time requirement.
   system.
   Conclusion: The system did not reduce                    We found that nurses participated in developing
   the time required to medicate patients,                  the automated system from its inception, and
   but decreased the occurrence of                          that local Information Management Section
   medication errors.                                       (IMS) employees worked closely with all
   Impact: Patient safety increases as a                    nursing employees until they were proficient in
   result of decreased incidence of                         operating the system. IMS employees provide
   medication errors.                                       virtually round-the-clock support and
                                                            consultation if nurses encounter problems with
We inspected allegations that VAMC managers                 the system. This intense IMS support has served
had forced nursing employees to implement an                to reduce nursing frustrations that arose from




                                                       39
                                                                     Office of Healthcare Inspections

implementing a new and unfamiliar system. We              actions that properly responded to our
did not make any recommendations.                         recommendation.

Inspection of Alleged Mistreatment of a                   Inspection of Alleged Inappropriate
PTSD Patient, VAMC Iowa City, IA, 8HI-                    Medical Care and Transfer of a Nursing
A28-116, 7/1/98                                           Home Patient, VAMC Huntington, WV,
                                                          8HI-A28-121, 7/13/98
   Issue: Insensitivity to post-traumatic
   stress disorder (PTSD) symptoms and                       Issue: Inadequate surgical cardiology
   patient’s needs.                                          care and unjustified cardiac surgery.
   Conclusion: Clinicians properly treated a                 Conclusion: Patient treated properly, but
   patient, but did not fully appreciate the                 transferring him to a private nursing
   gravity of his psychiatric symptoms which                 home was probably not in his or his
   led to him seeking an early discharge.                    family’s best interests.
   Impact: Better care for emotionally                       Impact: Improved coordination of care
   distressed PTSD patients.                                 for complex medical conditions.

We inspected allegations that VAMC clinicians             We inspected allegations that clinicians
failed to provide adequate care for a PTSD                neglected and provided inappropriate care to a
patient. We concluded that VAMC clinicians                patient, and that the patient’s care was so
properly managed the patient’s medical                    deficient that it directly resulted in his death. A
condition by ordering appropriate diagnostic              critical aspect of this case was the urgency of
evaluations and admitting the patient for                 performing coronary bypass graft surgery,
observation and treatment at a time when he was           during which, or immediately after which, the
at risk of developing barium aspiration                   patient suffered a stroke from which he never
pneumonia.                                                recovered.

Clinicians did not threaten the patient with loss         A senior VHA cardiothoracic surgeon from a
of his disability benefits if he refused to accept        different VISN reviewed the patient’s clinicians’
care, as the complainant alleged. However,                decisions and assessments regarding surgical
clinicians did not apparently fully appreciate the        urgency and appropriateness. He concluded that
patient’s exacerbated psychiatric symptoms that           the surgical intervention was both timely and
disrupted his normal sleep patterns, and a nurse          appropriate given the patient’s precarious
did not provide him with an ordered sleeping              condition. VAMC surgeons clearly and
medication. The patient viewed this refusal of            succinctly explained to the patient, the risks,
sleep medication as an insensitivity to his needs         benefits, and complications associated with the
and asked to be discharged against medical                surgery. The patient’s post-operative care was
advice.                                                   well managed by clinicians when he was
                                                          transferred back to his home VAMC.
We recommended that the Director order
nursing managers to provide in-service training           However, OHI concluded that clinicians’
on enhanced communication about individual                decision to transfer the patient from the VAMC
patients’ needs. The Director acknowledged a              to a private sector nursing home was probably
lack of knowledge in this area, particularly as it        not in the patient’s or his family’s best interests.
applies to PTSD patients’ needs, and initiated            The patient’s deteriorating medical condition led
                                                          to his return to the VAMC within a short time.




                                                     40
                                                                    Office of Healthcare Inspections

The coordination of the patient’s medical care            objectively and prescribe corrective treatment.
was complicated by the involvement of many                The patient and his family members were often
physicians and three VAMCs. This complexity               unable to talk to the patient’s physicians because
resulted in some lapses in effective                      of frequent teaching rotations.
communications with the family.
                                                          Also the patient and his family made clinicians
We made two recommendations aimed at                      aware of the patient’s wishes on the level of care
improving the coordination of complex patient             he was to receive at the end of his life, but
care cases after hospitalization and for obtaining        responsible clinicians did not properly record
patient’s and family members’ input and consent           this information or communicate it to the
for nursing home placement. The Director                  treatment staff. No clinical employees other
agreed with our recommendations and provided              than the social worker apparently ever counseled
reasonable implementation plans.                          the patient or his family about the death process.

Inspection of Selected Clinical Issues in                 We substantiated or partially substantiated all of
a Patient’s Care, VAMC Atlanta, GA, 8HI-                  these allegations. We made 12
A28-122, 7/13/98                                          recommendations aimed at correcting the
                                                          deficiencies that led to these events. The
   Issue: A patient experienced numerous                  Director agreed with all recommendations but
   unsatisfactory treatment experiences                   one, and provided responsive implementation
   during six episodes of hospital care.                  plans to reduce the possibility that similar
   Conclusion: Medical errors and                         incidents would reoccur. The Director did not
   omissions occurred, but the errors did not             concur with our recommendation to revise
   contribute to the patient’s death.                     resident and attending rotation procedures in
   Impact: Correcting several issues will                 order to provide better continuity of patient care,
   improve the overall care of patients.                  citing the affiliated medical school’s resistance
                                                          to such a change. However, he agreed to enter
We inspected a series of allegations pertaining to        into discussions with the medical school to
clinical and administrative misadventures that a          improve this issue.
patient had during the course of six episodes of
inpatient care from 1976 through 1995. A                  Inspection of Patient Care Allegations
physician had not heeded a drug allergy alert             and Quality Program Assistance Review,
and wrongly prescribed a medication to which              VAMC Lyons, NJ, 8HI-F03-125, 7/16/98
the patient was allergic, but clinicians
recognized the error before the patient had a                Issue: Unsatisfactory use of sterilizing
reaction. Clinicians did not properly follow up              equipment, unclean nursing home
on out of line laboratory tests and did not                  conditions, and inadequate staffing.
promptly treat a kidney condition. The patient               Conclusion: Unwanted events occurred,
had to spend excessive time in the Emergency                 but managers promptly corrected the
Room (ER) before he was admitted for an acute                conditions.
illness. Clinicians failed to recognize emerging             Impact: Improvement in care and safety.
pressure ulcers immediately and did not
promptly provide relief for the patient’s                 Several complainants raised concerns that
increasing pain. Clinicians recognized that the           clinical employees were not properly sterilizing
patient’s nutrition status was deteriorating, but         endoscopy equipment, and that this negligence
they did not immediately evaluate the condition           put patients at risk of incurring dangerous




                                                     41
                                                                     Office of Healthcare Inspections

infections; that there was a scabies epidemic              maintaining high profiles in all areas of the
among Nursing Home Care Unit (NHCU)                        medical center, they did not fully appreciate the
patients that managers were aware of but did not           depth and severity of employee morale
correct; and that the VAMC was in a                        problems.
dangerously understaffed condition as a result of
its consolidation with another VAMC and                    We made several recommendations aimed at
subsequent down-sizing.                                    preventing similar problems that we identified
                                                           during our inspection visit from reoccurring.
We confirmed that an endoscopy technician had              The Director agreed with our recommendations
developed a homemade endoscope sterilizing                 and implemented satisfactory corrective actions.
attachment when the factory made equipment
malfunctioned, and employees used the                      Inspection of Alleged Inappropriate
unauthorized attachment. However, infection                Medical Care, VAMC Tuskegee, AL, 8HI-
control and laboratory employees conducted                 A28-129, 7/28/98
numerous tests on the equipment to ensure that it
had been properly sterilized and did not find any             Issue: Alleged improper treatment of
indication of surviving pathogens on the                      acute pneumonia.
equipment after sterilization using the                       Conclusion: Clinicians provided
unauthorized equipment. They subsequently                     adequate and timely care to treat a
procured a properly authorized, functional                    patient’s acute respiratory failure.
attachment.                                                   Impact: High quality patient care.

The NHCU had three scabies outbreaks in a 3-               We inspected allegations that VAMC clinicians
year period of time. This phenomenon occurs                improperly inserted an endotracheal tube into a
with relative frequency among elderly, infirm              patient’s airway, unnecessarily placed her on
patients. However, clinicians recognized the               mechanical ventilation, caused her pain when
condition each time and implemented proper                 they suctioned her airway, refused to prescribe
treatment and prophylaxis to prevent its further           opiates to relieve her discomfort, refused to
spread to other patients.                                  obtain expert consultation to treat her pulmonary
                                                           problems, and refused to allow her sister to
The VAMC did experience a staffing reduction               administer chest physiotherapy in the intensive
in selected patient care areas as a result of rapid        care unit.
staffing cutbacks and recruitment lag time.
These conditions were exacerbated by                       We could not substantiate any of these
employees’ high level of emergency annual and              allegations. The patient had long-term chronic
sick leave usage. The Director immediately                 pulmonary disease and was a heavy smoker.
authorized recruitment of 30 additional nursing            She developed pneumonia that rapidly
employees which nursing managers distributed               progressed into acute respiratory failure. Her
according to need.                                         clinician properly intubated her and initiated
                                                           mechanical ventilation. He is a cardiologist who
We conducted this inspection in conjunction                is knowledgeable in treating pulmonary
with a QPA which showed that managers were                 problems so he did not need outside
working collaboratively in order to implement              consultation, and the patient’s rapid recovery of
many major organization and operational                    pulmonary function demonstrated his skills. The
changes. But even though managers were                     physician properly did not prescribe opiates for
meeting regularly with employees, and                      the patient’s discomfort since narcotics are




                                                      42
                                                                     Office of Healthcare Inspections

respiratory depressants and this would only have          help. We made several recommendations aimed
exacerbated her pulmonary problems. There is              at reducing the possibility that similar events
no question that suctioning an airway is a very           would occur in the future.
uncomfortable procedure; however, it appears
that clinicians used proper and accepted                  The Director agreed with our findings. He
procedures in carrying out this procedure,                immediately contacted the patient’s family,
thereby facilitating the patient’s ability to             communicated our findings and conclusions to
breathe.                                                  them, and provided them with proper
                                                          counseling. He also provided implementation
Since we did not identify any problems with this          plans that will properly carry out our
patient’s care, we did not make any                       recommendations.
recommendations.
                                                          Inspection of Alleged Mistreatment of a
Inspection of Alleged Inattentive and                     Respite Care Patient, VAMC Atlanta, GA,
Inadequate Care for a Veteran’s Chest                     8HI-A28-136, 8/26/98
Pain, VAMCs Birmingham and
Montgomery, AL, 8HI-A28-132, 8/13/98                         Issue: Home treatment for a hospital
                                                             incurred condition.
   Issue: Inattentive treatment for a                        Conclusion: Clinicians provided proper
   patient’s complaints of chest pain.                       treatment for a traumatic injury of the
   Conclusion: Nurses and a physician did                    urethra.
   not provide timely treatment.                             Impact: Establishment of standard
   Impact: A patient’s death may have been                   catheter anchoring procedures.
   preventable.
                                                          We inspected the circumstances surrounding the
We inspected the circumstances surrounding a              alleged improper treatment of a patient whose
patient’s allegedly preventable death in a                catheter anchoring tape had inadvertently
VAMC’s Ambulatory Care Unit. The family                   migrated into his urethra. The complainant
alleged the patient had complained at length that         alleged that clinicians failed to properly treat the
he was having severe chest and arm pain, and              resultant condition and attempted to cover up
that in spite of these complaints, clinicians made        their error.
him wait an excessive amount of time in the               Our inspection found that clinicians had
patient waiting area, without being seen by a             anchored the patient’s urinary catheter to his leg
clinician. When the patient became more                   with non-allergic tape, and that the tape
distressed and began asking loudly to be seen, a          apparently became dislodged from the catheter
resident physician confronted him and told him            and migrated along the tube and into his urethra.
if he was in such distress, he should go to the ER        This caused the patient to bleed around the
to be seen. A nurse transported the patient to the        catheter and created intense discomfort. VAMC
ER where he died shortly after arriving.                  Home Care nurses and a physician immediately
                                                          examined the patient at home and remedied the
The Office of Medical Inspector had reviewed              problem. The patient’s discomfort continued
this case but had not interviewed family                  and his spouse transported him to the ER late in
members. We concurred with the Office of                  the evening, where a resident physician
Medical Inspector that clinicians failed to               examined but did not treat the patient and sent
recognize the patient’s distress and reacted              him home.
improperly to his anxieties and entreaties for




                                                     43
                                                                    Office of Healthcare Inspections

We concluded the VAMC did not have a                      head trauma. Several expert neurological and
standard method for anchoring urinary catheters           pathology consultants told us that it was unlikely
and recommended that they standardize                     that the assault was associated with the patient’s
procedures in this regard. We also                        death.
recommended that clinicians be reminded about
the necessity to clearly communicate with                 We also found clinicians had provided
patients and their family members as to what              appropriate follow up and treatment for patients
they found on examination, and what treatment             who had been taken into custody, but the VAMC
is needed, if any. The Director agreed with our           did not have an established procedure to ensure
recommendations and implemented appropriate               that patients had their prescribed medications
corrective actions.                                       when they were arrested and taken to jail. We
                                                          recommended the Director establish such a
Inspection of Allegations Pertaining to                   procedure. He agreed with this recommendation
the Psychiatric Service, VAMC North                       and established an appropriate policy.
Chicago, IL, 8HI-A28-137, 9/1/98
                                                          Inspection of Alleged Mismanagement of
   Issue: Medical treatment for psychiatric               Psychiatric Programs, William Jennings
   patients.                                              Bryan Dorn Veterans Hospital, Columbia,
   Conclusion: Managers took appropriate                  SC, 8HI-A28-152, 9/30/98
   action.
   Impact: Medical procedures established.                   Issue: Degraded psychiatric treatment
                                                             associated with outpatient vs. inpatient
We inspected the circumstances surrounding                   treatment.
several allegations that managers did not                    Conclusion: More patients have access
appreciate the need to treat psychiatric patients’           to care.
medical problems and that as a result of this                Impact: Enhanced access, reduced cost,
problem, several patients had suffered unwanted              but effective treatment.
consequences. The complainant also made
several allegations regarding managers’ lack of           We inspected allegations that the quality of care
interest and follow up on an incident in which            in well established psychiatric programs had
she alleges that one patient assaulted another            deteriorated since managers had revised them
patient who subsequently died of his injuries;            from predominantly inpatient to outpatient
and about patients who suffered ill affects of            programs. We evaluated the treatment protocols
incarceration because VAMC clinicians failed to           for the Substance Abuse and Geropsychiatry
look after their interests at the time authorities        Treatment programs and found they appear to be
took them into custody.                                   reasonable and consistent with outpatient
                                                          treatment programs around the Nation.
Our inspectors found that clinical and executive
managers had taken appropriate actions to                 We interviewed senior program clinicians,
ensure that medical physicians routinely                  patients, and family members, all of whom were
provided needed treatment to psychiatry patients          satisfied with the quality of care that these
who need medical assistance. Managers had not             outpatient programs afford. Clinicians
ignored the incident in which the patient                 interviewed stated they had been consulted
allegedly died after another patient assaulted            about the transition to outpatient care and agreed
him. The patient died nearly 1 year after the             the outpatient method was probably superior,
incident, and he had a long history of severe             since there are drugs and procedures for these




                                                     44
                                                         Office of Healthcare Inspections

patients that were not available several years
ago. Also, patients appear to be more satisfied
with their treatment since they do not have to be
confined to a facility to treat their conditions.

The complainant also provided the names of 48
patients whose psychiatric clinician allegedly
mistreated or did not treat adequately. We
reviewed all but two of these patients’ medical
records and found clear evidence that clinicians
treated them properly and followed up on their
care needs after they were discharged. The two
patients whose care we did not review had been
transferred to other VAMCs and their records
were not available to us.

Since we did not identify any problem areas, and
did not substantiate the allegations, we did not
make any recommendations.




                                                    45
     Office of Healthcare Inspections




46
OFFICE OF DEPARTMENTAL REVIEWS AND
MANAGEMENT SUPPORT
Mission Statement                                         includes controlling and referring many cases to
                                                          impartial VA components having jurisdiction.
    Promote OIG organizational effectiveness              The Special Inquiries section reviews Hotline
    and efficiency by providing reliable and              cases that involve allegations of misconduct and
    timely management and administrative                  mismanagement by senior officials.
    support, and providing products and
    services that promote the overall mission             III. Policy, Followup and Operational Support
    and goals of the OIG. Strive to ensure that           Division - The Division does followup tracking
    all allegations communicated to the OIG               of OIG report recommendations; Freedom of
    are effectively monitored and resolved in a           Information Act (FOIA) releases; strategic and
    timely, efficient, and impartial manner, and          operational planning; IG reporting and policy
    independently conduct special inquiries               development; and Internet document
    into allegations concerning senior ranking            management.
    officials and other high profile matters.
    Conduct contract reviews to assist                    IV. Resources Management Division - The
    contracting officers in price negotiations;           Division is responsible for OIG financial
    to ensure that contractors submit accurate,           operations, including budget formulation and
    current, and complete pricing data.                   execution; OIG personnel management;
                                                          management information systems development
The Office of Departmental Reviews and                    and maintenance; and all other OIG
Management Support is a diverse organization              administrative support services.
responsible for a wide range of operational and
administrative support functions. The Office              Resources
consists of the following four Divisions:
                                                          The Office of Departmental Reviews and
I. Contract Review and Evaluation Division -              Management Support has 68 FTE allocated to
The Division is responsible for conducting                the following areas.
preaward reviews of Federal Supply Schedule
(FSS) proposals, postaward reviews of FSS
contracts, drug pricing reviews under the                                          Hotline &
provisions of Public Law 102-585, and other                                         Special
work, such as providing technical assistance to                                    Inquiries
contracting officers, VA General Counsel, or the                                     28%
                                                                  Contract
Department of Justice for the preparation of trial                 Audit
or settlement cases.                                                35%

                                                                                     Res Mgmt
II. Hotline and Special Inquiries Division - The                        Followup       22%
Division is responsible for determining action to                         FOIA
be taken on allegations received by the OIG                               15%
Hotline. The Hotline section receives over
20,000 contacts annually, mostly from veterans,
VA employees, and congressional sources. This




                                                     47
                                  Office of Departmental Reviews and Management Support

                                                       totaled $14.3 million. Preaward reviews,
I. CONTRACT REVIEW                                     designed to assist VA contracting officers in
AND EVALUATION                                         negotiating the best possible prices made
                                                       recommendations that may save VA
DIVISION                                               $14.1 million.

Mission Statement                                      Customer Satisfaction Measures
                                                       • Customer satisfaction survey forms were
                                                       used by VA contracting officers to provide
   Assist VA in its efforts to become a world-         feedback on the degree of satisfaction with our
   class purchasing organization for health            reviews. For this period, the average customer
   care items by providing contracting officers        satisfaction rating was 4.9 out of a high of 5.
   with reliable and timely contract review
   and evaluation services. Conduct
   preaward reviews to assist contracting
   officers in price negotiations by holding           Office of Management
   contractors accountable for the best prices;
   conduct postaward reviews to ensure that            Postaward Audit Activity
   contractors submitted accurate, current,
   and complete pricing data in support of             Issue: Prime vendor overcharges for
   negotiations and, where warranted, recover             pharmaceutical products.
   overcharges; and conduct reviews to                 Conclusion: Postaward review discloses
   ensure that contractors adhere to the drug             overcharges.
   pricing provisions of Public Law 102-585.           Impact: Contractor agrees to refund
                                                          $9.4 million.
Resources
                                                       Our review found that a pharmaceutical prime
The Contract Review and Evaluation Division            vendor had overcharged FSS customers
has 23 FTE. These FTE are provided on a                $9.4 million from January 1, 1998 through
reimbursable basis from the Office of                  June 30, 1998. When the company converted to
Acquisition and Materiel Management                    a new electronic ordering system in January
(A&MM) to perform contract reviews for VA.             1998, VA customers immediately noticed an
                                                       unusual number of pricing irregularities and
Overall Performance                                    reported their concerns to the National
                                                       Acquisition Center (NAC). At the request of
                                                       NAC officials, we reviewed FSS sales data and
Output
                                                       company disclosures and issued an interim
• The Division issued a total of 16 reports
                                                       report that confirmed continuing pricing
during the period, of which 9 were preaward
                                                       irregularities and contract overcharges. The
contract reviews and 7 were postaward audits.
                                                       contractor has agreed to reimburse VA
                                                       $9.4 million. We are continuing to review the
Outcome
                                                       contracts to determine if additional money is
• We returned $31 for every $1 expended on
                                                       owed VA.
postaward activity and $25 for every $1
expended on preaward reviews. Dollar
recoveries resulting from postaward audits




                                                  48
                                   Office of Departmental Reviews and Management Support

Issue: Contractor overcharges for                        from errors in the computation of Federal
   wheelchairs.                                          Ceiling Prices. We reviewed the self-audit and
Conclusion: Postaward review discloses                   determined that the amount due was computed
   overcharges.                                          correctly. We also reviewed various commercial
Impact: VA recovers $2.6 million.                        contracts to determine if there was any defective
                                                         pricing or price reduction impact.
In a previous semiannual report, we reported
that a contractor, supplying wheelchairs to VA           Preaward Review Activity
and other Government entities under an FSS
contract, overcharged government customers
                                                         Issue: FSS vendors did not always offer
based on a postaward review. This period the
                                                            best prices to VA.
contractor agreed to pay the Government $2.6
                                                         Conclusion: Reviews recommend
million to settle the Government’s claim under
                                                            potential better use of funds.
the False Claims Act.
                                                         Impact: VA may save $14.1 million.
The review concluded the contractor failed to
                                                         Preaward reviews of FSS offers from contractors
provide accurate, complete, and current
                                                         supplying dental supplies and equipment, X-ray
information regarding its sales and marketing
                                                         film and equipment, and drug and
practices, which resulted in the Government
                                                         pharmaceutical products show that contractors
paying higher prices than similarly situated
                                                         did not always initially offer best prices to VA.
commercial customers. This review was
especially complex because it involved the
                                                         • Three preaward reviews of X-ray film and
analysis and comparison of wheelchairs with
                                                         equipment offers resulted in recommendations
literally hundreds of different configurations.
                                                         of potential savings of $11.5 million.
The Department of Justice and OIG negotiated
the settlement.
                                                         • Five preaward reviews of dental supply and
Issue: Contractor overcharges for                        equipment offers resulted in potential savings of
   pharmaceuticals.                                      $1.8 million.
Conclusion: Postaward audits disclosed
   contract overcharges.                                 • One preaward review of a pharmaceutical
Impact: VA recovers $2.3 million from                    company’s offer resulted in potential savings of
   three contractors.                                    $800,000.

• A pharmaceutical company remitted                      Potential savings result from recommendations
$2,150,000 to VA for contract overcharges                to contracting officers to negotiate lower prices
resulting from not disclosing accurate, complete,        based on our review of the contractor’s
and current pricing and discount information to          commercial sales practices.
the contracting officer during negotiations. The
contractor’s failure to disclose their most              Issue: Measured effect of previously
favored customer discounts denied the                       reported better use of funds.
Government the opportunity to negotiate more             Conclusion: Significant savings are
favorable discounts.                                        sustained by contracting officers.
                                                         Impact: VA will save $21.6 million over a
                                                            5-year contract period.
• A pharmaceutical manufacturer voluntarily
disclosed overcharges of $140,000 resulting




                                                    49
                                    Office of Departmental Reviews and Management Support

In previous semiannual reports, we have                   loss if the contract had been completed and
identified significant potential savings to the VA        therefore the contractor was not entitled to the
relating to recommendations made on preaward              claimed profit.
reviews of FSS offers. To determine the effect
of our recommended potential savings, we
compared our original recommendations to the
results of negotiations.

We now have received completed negotiation
results related to six FY 1998 pharmaceutical
preaward reviews containing recommended
                                                          II. HOTLINE AND
potential savings. The six preaward reviews               SPECIAL INQUIRIES
contained recommended potential savings of
$23.7 million; VA contracting officers in                 DIVISION
negotiations were able to achieve savings to the
VA of $21.6 million over the projected 5-year             Mission Statement
contract period.
                                                              Strive to ensure that mission related
We will continue to measure the effect of the
                                                              allegations communicated to the
other preaward reviews completed in FY 1998
                                                              Division are responded to in an efficient
with recommendations amounting to $174.8
                                                              and effective manner using OIG
million in potential savings. Upon receipt of the
                                                              personnel or impartial VA officials, and
negotiation results, we will be able to determine
                                                              independently review allegations
how much of our recommended potential
                                                              concerning senior officials and other
savings was achieved in negotiations.
                                                              high profile matters.
Other Contract Review                                     The Hotline Section operates a toll-free
                                                          telephone service 5 days a week, Monday
Issue: Contractor claims overstated.                      through Friday, from 5 AM to 10 PM Eastern
Conclusion: Contract review disclosed                     Time. Phone calls, letters, and E-mail are
   overstated claims against a VA                         received from employees, veterans, the general
   contract.                                              public, the Congress, GAO, and other Federal
Impact: Potential better use of $334,000.                 agencies reporting issues of fraud, waste, and
                                                          abuse. Due consideration is given to all
A contractor submitted a settlement proposal              complaints and allegations received, with each
and claims of $578,000 to VA for costs incurred           addressed by OIG or other Departmental staff.
as a result of termination of a construction
project. The contractor’s termination settlement          The Special Inquiries Section reviews
proposal and claims for equitable adjustment              allegations against high-ranking officials and
related to an alleged, Government-caused                  examines other high profile requests. Special
performance delay. We questioned $334,000 of              inquiries staff independently conduct the
the claimed costs. The questioned costs                   administrative reviews and make
pertained to all areas of claimed costs, but              recommendations for corrective actions to the
primarily related to an audit-determined contract         Department.
loss adjustment computation. The review found
the contractor would have incurred a monetary




                                                     50
                                      Office of Departmental Reviews and Management Support

Resources                                                Outcome
                                                         VA managers took administrative actions
The Hotline and Special Inquiries Division has           against 32 employees and 106 corrective actions
19 FTE assigned. In addition to the Division             to improve operations and activities as the result
Director, there are 7 employees in the Hotline           of these reviews. The monetary impact resulting
Section and 11 employees in the Special                  from these cases totaled $540,629.
Inquiries Section. The following chart shows
the percentage of resources utilized in reviewing        Customer Satisfaction
allegations by program area.                             Customer satisfaction surveys indicated that VA
                                                         managers found the special inquiry reports to be
                                                         useful in addressing allegations at their facilities.
                                                         The customer satisfaction survey rating for the
                                                         period averaged 4.1 out of a maximum of 5
                VBA     A&MM
                                IRM
                                                         points.
                20%      9%
                                 1%

                                Fin
                               Mgmt
                               10%                       A. HOTLINE SECTION
         VHA
         60%                                             The Hotline Section retained oversight on a
                                                         number of cases that were referred to other VA
                                                         OIG elements as well as to independent VHA
                                                         and VBA program officials for resolution.
                                                         Hotline staff followup on issues such as patient
Overall Performance                                      care, veterans’ benefits, employee conduct,
                                                         property and personal gain. The following are
During the reporting period the Hotline received
                                                         some examples of the cases that were closed
7,609 contacts. Of this number, 439 cases were
                                                         during this reporting period.
opened. The OIG reviewed 64 of these and the
remaining 375 cases were referred to VA
program offices for review.

Output                                                   Veterans Health
During the reporting period, Hotline staff closed
497 cases of which 103 contained substantiated           Administration
allegations (21 percent). Of the closures, we
responded to 80 Congressional inquiries                  Patient Abuse
received from Members of the Senate and House
of Representatives. Special inquiries section            • A VHA review initiated by a Hotline inquiry
staff closed 21 cases. Staff issued 9 reports and        confirmed allegations of misconduct, including
completed 12 administrative closures.                    patient abuse by a VA Domiciliary Director.
                                                         The Director was removed from his position,
                                                         given a 60-day suspension, demoted and
                                                         reassigned to a staff nurse position.




                                                    51
                                   Office of Departmental Reviews and Management Support

• A Hotline inquiry to VHA found that a                  several floors and injured at least one employee.
health care provider slapped a patient because he        The review also found inadequate
removed his oxygen mask. The health care                 documentation to prove regular maintenance
provider received a 14-day suspension.                   was performed. VAMC officials plan to work
                                                         with the private elevator repair contractor on a
Patient Care                                             regular basis until satisfactory performance is
                                                         achieved and maintained.
• A VHA review initiated by a Hotline inquiry
at a facility substantiated the need to improve          Lobbying Restrictions and Using
health care procedures. The review found that            Government Time and Property
poor record keeping resulted in a false diagnosis
of cancer. Further, the review noted that family         • A Hotline inquiry to VHA substantiated that
members were notified of the diagnosis before            a VAMC probationary employee was using a
the patient. Senior officials apologized to the          VA computer to contact and request other VA
patient and offered further care at the same             employees to write their Congressional
facility or on a fee basis with a private                representatives to lobby against the President’s
physician. VHA took action to implement                  FY 1998 budget. The employee also provided
improvements to several reporting systems as             the others with a sample message arguing
the result of the review.                                against the budget. The probationary employee
                                                         was terminated from VA employment.
• A Hotline inquiry sent to VHA found that a
Family Nurse Practitioner was prescribing                Contracting Activities
medications even though she had not fulfilled all
of the VHA and State requirements for                    • A VHA review initiated by a Hotline inquiry
prescriptive authority. Corrective action was            found that a VAMC contracting officer
taken to remove the prescriptive authority from          improperly removed an 8a firm from an awarded
her previously approved Scope of Practice                contract and gave the contract to a non-8a firm.
Statement and to review the credentials of all           The contracting officer also failed to act as
mid-level practitioners currently working with           mentor for the 8a firm. A GAO protest
expanded authority to ensure that all met the            settlement set aside the second year of the
minimum VHA requirements.                                contract so the contract could be rebid. The
                                                         contracting officer’s warrant was revoked.
• A VHA review initiated by a Hotline inquiry
substantiated that medical center staff                  • A VHA review initiated by a Hotline inquiry
unreasonably delayed paying a veteran’s fee              substantiated that an administrative officer
basis care provider for two years for the                improperly used an IMPAC card to purchase
treatments he received. The VAMC admitted                telephone answering machines at a VAMC. The
the error and paid the bills on four authorized          administrative officer received a verbal
treatments. The Director sent the veteran and            counseling. All credit card holders and
his fee basis physician letters of apology.              approving officials have been notified that this
                                                         type of activity is prohibited and may lead to
Public Safety                                            disciplinary action. The VAMC informed us
                                                         that periodic reminders would be sent to
• A VHA review initiated by a Hotline inquiry            reinforce this policy.
confirmed there was an unsafe elevator at one
facility. The elevator would unexpectedly drop




                                                    52
                                     Office of Departmental Reviews and Management Support

Using and Handling VA Stationary and                       Management officials informed us they would
Postage                                                    take the appropriate disciplinary action.

• A Hotline inquiry to VHA substantiated that              Personnel Irregularities
an employee used VA stationary and postage for
personal use. The employee was given a written             • A VHA review initiated by a Hotline inquiry
counseling, informing him of the inappropriate             of a kitchen operation substantiated significant
action and instructions to refrain from any                of personnel policies by the supervisor and the
further use of government resources for personal           staff. The Board of Investigations recommended
matters. A Bill of Collection was issued to the            disciplinary actions including the suspension of
employee to recoup the expense incurred by the             some employees.
government.
                                                           • A Hotline inquiry prompted a Human
• A VHA review initiated by a Hotline inquiry              Resources Management (HRM) evaluation of
found that a VAMC mailroom employee was                    the personnel operations at one medical center,
inappropriately discarding “junk mail.” VAMC               which resulted in the identification of serious
officials counseled the employee and directed              systemic and regulatory problems in the
that future decisions to discard mail be made by           facility’s HRM program. Recommendations for
management.                                                corrective actions were made and were acted on
                                                           by VAMC management, to include taking action
Use of Government Vehicles for Official                    to correct an inappropriate promotion.
Business

• A Hotline inquiry to a VISN confirmed that
a manager at one of their facilities authorized the        Appropriateness of Certain Timekeeping
use of a VA bus for other than VA business                 Procedures
reasons. The official permitted an Employee
Association to transport VA employees for non-             • A VHA review initiated by a Hotline inquiry
official purposes. The official was counseled,             substantiated that a VAMC surgical service
and the Chief Network Officer prepared a letter            employee failed to enter a request for two days
to all VHA facilities to prevent future                    of annual leave. It was also found that the
occurrences.                                               employee was certifying his own timecard.
                                                           Action was taken to correct the employee’s
• A Hotline inquiry to the VA canteen service              timecard to reflect annual leave taken for the
found that a senior official used a Government             two days in question and the employee was
vehicle to help his son deliver newspapers in              counseled for not recording leave for brief
their neighborhood. VA issued the official a               absences from duty and failure to record other
reprimand for using the vehicle for other than             annual leave. The service chief was also
official purposes.                                         counseled for failing to ensure proper
                                                           timekeeping procedures.
Misuse of Government Equipment

• A VHA review initiated by a Hotline inquiry
found that a VAMC employee misused a
Government computer and telephone on several
occasions during her scheduled duty hours.




                                                      53
                                    Office of Departmental Reviews and Management Support

                                                          the veteran’s estate $1,637. The VARO will
Veterans Benefits                                         continue to monitor this case closely to prevent
Administration                                            further improprieties in administering the
                                                          veteran’s VA money.
Falsification of Pension Information
                                                          Claiming Dependents for VA Benefits
A VBA review initiated by a Hotline inquiry
found that a pension recipient who ran a                  • A VBA review initiated by a Hotline inquiry
homeless shelter falsified information on his             found that a widow was reporting that her
pension application. The VARO assessed an                 daughter was in school for countable income
overpayment of $11,417 against the veteran.               purposes, even though the daughter had
The VARO also noted that the veteran left the             discontinued school attendance and was
area after withdrawing $15,528 in monies                  working. The daughter was removed from the
donated to the shelter. Hotline staff faxed               widow’s benefits award, creating an
materials to the regional counsel so state                overpayment of $735. The VARO has taken
warrants could be issued for the veteran’s arrest.        action to recoup the amount of the overpayment.

Continuing Compensation Payments to                       •   Another Hotline inquiry to VBA found that
Incarcerated Veterans                                     a veteran failed to notify VA that he was
                                                          divorced and that he continued to claim his
• A VBA review initiated by a Hotline inquiry             stepchildren on his award. An overpayment of
found that a 100 percent service-connected                $4,287 was created.
veteran had been incarcerated since late
November 1997 and had not been subjected to a             • A VBA review initiated by a Hotline inquiry
reduction in benefits as prescribed by law. This          confirmed that a veteran’s spouse continued to
created an overpayment in excess of $18,000.              receive an apportionment of his benefits,
The VARO took action to reduce the veteran’s              although they were divorced. The veteran had
monthly compensation from $2,110 to $94.                  provided a copy of the petition for divorce from
                                                          his spouse but had not provided a copy of the
• Another VBA review initiated by a Hotline               final decree issued by the court. The VARO
inquiry found that a 100 percent service-                 created an overpayment to recoup the amount of
connected veteran was incarcerated but                    the apportionment after the divorce was final.
continued to receive payments without a
prescribed reduction in benefits as prescribed by
law. This created an overpayment of $1,652.
The veteran’s compensation benefits were
reduced from $2,078 to $95 monthly.
                                                          B. SPECIAL INQUIRIES
                                                          SECTION
Fiduciary Use of Veteran’s Funds and
Purchasing Items                                          The special inquiry reports discussed below
                                                          address serious issues of misconduct against
A VBA review initiated by a Hotline inquiry               high ranking officials and other high profile
found that a veteran’s fiduciary purchased                matters, which received a great amount of
computer equipment using the veteran’s VA                 interest from the U.S. Congress, Secretary, VA
benefits money. The fiduciary will reimburse              managers, media, and the general public.




                                                     54
                                   Office of Departmental Reviews and Management Support

                                                        The Chief Network Officer concurred, or
Veterans Health                                         partially concurred with 68 of the 74
Administration                                          recommendations made in the report. Of the
                                                        remaining six responses, VHA deferred
Management, Clinical, and                               comment on two recommendations. We are
Administrative Issues                                   following up on these issues until they are
                                                        resolved. VHA did not concur with three of the
The OIG reviewed numerous allegations of                five recommendations on behalf of employees
mismanagement, misconduct, poor clinical care           whom we concluded were retaliated against by
practices, criminal activity, and administrative        VA management. The employees have filed, or
irregularities at the VA Central Alabama                have been notified of their right to file, a
Veterans Health Care System. While many of              complaint with the Office of Special Counsel.
the allegations were not substantiated, we did          VHA also did not agree to take administrative
substantiate that the Director improperly spent         action against the Director for engaging in
funds, misused his Government credit card,              prohibited personnel practices. We have
inappropriately attempted to use appropriated           referred this matter to the Deputy Secretary for
funds for an employee picnic, and impeded OIG           resolution. (Management, Clinical, and
efforts to investigate issues. The Director also        Administrative Issues at the VA Central
engaged in questionable personnel practices.            Alabama Veterans Health Care System, 8PR-
                                                        G03-144, September 29, 1998)
We substantiated that the Associate Director
submitted questionable claims for travel                Procurement Issues and Violation of
reimbursements and attempted to pressure                Spending Authority
subordinates to spend appropriated funds
inappropriately. The Associate Director also            A review substantiated that 6 of 12 contested
violated nepotism laws and engaged in                   procurements made at a facility violated Federal
prohibited personnel practices by retaliating           Acquisition Regulations. The review also found
against one or more employees for                       that facility senior officials and acquisition staff
whistleblowing. We substantiated that five              did not adequately resolve the procurement
former service chiefs were victims of                   protests. The procurement staff also
harassment and/or retaliation. We also found            inappropriately obligated $468,395 in funds
that numerous personnel regulatory and                  after the legal spending authority had expired.
procedural violations occurred at the facility.         VHA took appropriate administrative actions
Our healthcare inspectors substantiated some            against the responsible officials, and corrected
allegations involving instances of inappropriate        other identified deficiencies. (Procurement
patient care. The inspectors also expressed             Issues, VAMC Ann Arbor, Michigan, 8PR-E11-
concern over staffing nursing units, patients’          134, September 16, 1998)
nutritional care, and several other patient care
issues. Healthcare inspectors found that                Employees’ Right to Report Complaints
managers needed to concentrate on improving
certain quality management practices. We also           The special inquiry review substantiated that a
noted administrative controls for monitoring            Director issued a memorandum prohibiting
time and attendance, Government credit cards,           employees from reporting complaints to outside
fire and safety, and Government property needed         organizations without first reporting them
improvement.                                            internally. We found that the memorandum was
                                                        contrary to the Inspector General Act of 1978




                                                   55
                                     Office of Departmental Reviews and Management Support

and the Whistleblower Protection Act of 1998,              correct the other conditions noted in the report.
which preserve Federal Government employees’               (Conduct, Personnel and Contracting Issues,
right to bring their concerns to the OIG, the              James A Haley VAMC Tampa, Florida, 8PR-
Office of Special Counsel, and others without              A19-095, May 4, 1998)
fear of reprisal. VHA took action to rescind the
memorandum and issue one in compliance with                Travel and Funds Management by a
the Whistleblower Protection Act of 1978.                  Former Official in VA Central Office
(Employees’ Right to Report Complaints, VAMC
Albuquerque, New Mexico, 8PR-F03-119, July                 A report responds to allegations that a senior
22, 1998)                                                  quality management official inappropriately
                                                           claimed and received reimbursement for
Use of Official Position for Personal Gain                 unauthorized travel. VHA took administrative
                                                           action and initiated collection procedures.
A special inquiry review responded to                      (Travel and Funds Management by a Former
allegations that a VA health care provider                 VHA Official in VA Central Office, 8PR-A19-
referred a patient to his private business.                096, April 20, 1998)
Conduct regulations prohibit employees from
using their public office for private gain. The
VHA took administrative action against the
physician employee in this matter. (Use of
Official Position for Personal Gain, VAMC
Iowa City, Iowa, 8PR-F03-115, June 30, 1998)
                                                           Veterans Benefits
Employee Conduct                                           Administration
A special inquiry report responded to allegations          Relocation Expenses and
that a supervisor and other staff exhibited                Reimbursement Issues
conduct unbecoming Federal employees by
hiring two female exotic dancers to perform in             A review at a VARO substantiated an allegation
the nude at the VA facility. VHA informed us               that a supervisor improperly claimed and was
they would take administrative action against the          reimbursed real estate expenses not incidental to
responsible employees in this matter. (Employee            a transfer to a new duty location. The report
Conduct, VAMC Gainesville, Florida, 8PR-G03-               recommended that a debt be established to
110, June 3, 1998)                                         collect the real estate expenses, including all
                                                           withholding tax and relocation income tax
Conduct, Personnel, and Contracting                        allowances improperly paid to the employee. A
Issues                                                     final accounting found that the debt was
                                                           $19,352. Action was taken to initiate the
A report responds to allegations that a Director           appropriate collection procedures. (Relocation
misused his position, employees inappropriately            Expenses and Reimbursement Issues at VARO
received free meals and consumed alcohol at the            San Diego, California, 8PR-B01-097, April 17,
facility, and other staff improperly contracted for        1998)
certain services. The review substantiated the
first two allegations. We did not substantiate
that staff inappropriately contracted for services.
VHA took appropriate administrative actions to




                                                      56
                                      Office of Departmental Reviews and Management Support

                                                      and reviews with over $1 billion of actual or
III. POLICY,                                          potential monetary benefits as of September 30,
FOLLOWUP AND                                          1998. Of this amount $795 million is resolved,
                                                      but not yet realized as VA has agreed to
OPERATIONAL                                           implement the recommendations, but has not yet
                                                      done so. In addition, $248 million relates to
SUPPORT                                               unresolved reviews awaiting contract resolution
                                                      by VA contracting officers.
Mission Statement
                                                      The Division is also responsible for maintaining
    Promote OIG organizational effectiveness          the Department's centralized, computerized
    and efficiency by providing reliable and          followup system that provides for oversight,
    timely followup reporting and tracking on         monitoring, and tracking of all OIG
    OIG recommendations, response to                  recommendations through both resolution and
    Freedom of Information Act (FOIA)                 implementation. Resolution and implementation
    requests, policy review and development,          actions are monitored to ensure that disagreements
    strategic and operational planning,               between OIG and management are resolved as
    Inspector General reporting requirements,         promptly as possible and that corrective actions
    and Internet document management and              are implemented as agreed upon by management
    control.                                          officials. Disagreements unable to be resolved
                                                      between OIG and management are decided by the
                                                      Deputy Secretary, VA's audit followup official.
Resources
                                                      Management officials are required to provide the
This Division has 9 FTE with the following            OIG with documentation showing the
allocation:                                           completion of corrective actions, including
                                                      reporting of collection actions until the amounts
                                                      due VA are either collected or written off. OIG
                                                      staff evaluates information submitted by
                FOIA
                43%                                   management officials to assess both the
                            Leg Req                   adequacy and timeliness of actions and to
                              2%
                                                      request periodic updates on an ongoing basis.
                              Reports
                                9%
                                                      As of September 30, 1998, VA had 116 open
                           Internet                   OIG reports with 293 unimplemented internal
            Followup         13%
              33%
                                                      recommendations, 4 unresolved internal
                                                      recommendations, and 57 unresolved contract
                                                      review recommendations.

                                                      During this reporting period, the Division took
Overall Performance                                   action to close 75 reports issued in this and prior
                                                      periods, with 242 recommendations and a
Followup on OIG Reports                               monetary benefit of $133 million, after obtaining
                                                      information that showed management officials
The Division is responsible for obtaining             had fully implemented corrective actions.
implementation actions on audits, inspections,




                                                 57
                                      Office of Departmental Reviews and Management Support

During this period, 100 percent of followup                 During this period, 96 percent of FOIA cases
requests on immediate actions were sent within              received written responses within 20 working
three months. The previous standard was six                 days, as compared with 86 percent previously.
months. Also, 100 percent of the initial and the            Also, the average processing time for workable
subsequent followup letters were processed in               FOIA requests was reduced from 32 days to 14
less than 3 months, as compared with the former             days.
7 month average.
                                                            Internet Technology
FOIA, Privacy Act, and Other Disclosure
Activities                                                  The Division’s OIG Webmaster is responsible
                                                            for all electronic processing of OIG reports,
The Division processes all OIG FOIA and                     including the maintenance of the OIG web sites
Privacy Act requests from Congress (on behalf               and the posting of OIG reports on the Internet.
of constituents), veterans, veterans service                The OIG's public web pages received 400,000
organizations, VA employees, news media, law                hits from over 26,000 visitors during this period.
firms, contractors, complainants, general public,
and subjects/witnesses of inquiries and                     During this period, we successfully responded to
investigations. In addition, the Division                   a blind FOIA requestor by electronically
processes official requests for information and             redacting a requested report, then converting it
documents from other Federal Departments and                to the software format that the requestor
agencies, such as the Office of Special Counsel,            preferred for her screen reader.
the Department of Justice, and the FBI. These
requests require the review and possible                    We initiated redesign and recoding of all OIG
redacting of OIG hotline, special inquiry,                  web pages to ensure that customers can quickly
healthcare inspection, investigation, contract              access the information they need and to ensure
audit, and internal audit reports and files. It also        that vision-impaired veterans and other
processes OIG reports and documents to assist               customers can access our web site.
VA management in establishing evidence files
used in taking administrative or disciplinary               We electronically redacted and converted 4
actions against VA employees.                               frequently-requested reports and posted them on
                                                            the Internet in compliance with the new
During this reporting period, we processed 134              Electronic FOIA requirements. We also posted
requests under the Freedom of Information and               a number of unredacted reports, press releases,
Privacy Acts and released 208 audit,                        and all recurring OIG publications such as the
investigative, and other OIG reports. In eight              last Semiannual Report to the Congress.
instances we had no records. We totally denied
two requests under the appropriate exemptions               Review and Impact of Legislation and
of the Acts. Information was partially withheld             Regulations
in 96 requests because release would have
constituted an unwarranted invasion of personal             The Division coordinated concurrences on
privacy, interfered with enforcement                        legislative and regulatory proposals from the
proceedings, disclosed the identity of                      Congress, Office of Management and Budget
confidential sources, disclosed internal                    and the Department that relate to VA programs
Department matters, or was specifically                     and operations. The OIG commented and made
exempted from disclosure by statute.                        recommendations concerning the impact of the
                                                            legislation and regulations on economy and




                                                       58
                                    Office of Departmental Reviews and Management Support

efficiency in the administration of programs and
operations or the prevention and detection of
                                                                                   ADP
fraud and abuse. During this period, 80                                            25%
legislative, 50 regulatory proposals, and 11                       Admin.
“other” proposals were reviewed and 28 were                         Supt.
                                                                    21%
commented on, as appropriate.
                                                                                         Budget
                                                                                          21%
                                                                    Travel
                                                                     8%
                                                                             HRM
                                                                             25%


IV. RESOURCES
MANAGEMENT DIVISION                                       Overall Performance

Mission Statement                                         Automated Data Processing

    Promote OIG organizational                            A system analysis was performed by a private
    effectiveness and efficiency by providing             contractor, which indicated that Resources
    reliable and timely management and                    Management must update both its hardware and
    administrative support services.                      basic operating system before it can begin to
                                                          develop a management information system
The Resources Management Division provides                integrating operational and functional
support services for the entire OIG. Our                  information (including a Master Case Index). A
services include personnel advisory services and          contract will be awarded in the first quarter of
liaison; budget formulation, presentation, and            FY 1999.
execution; ADP programming and support;
travel processing; procurement; space and                 Budget
facilities management; and general
administrative support.                                   In response to numerous Congressional requests
                                                          for information concerning how we would
Resources                                                 utilize additional personnel resources, we
                                                          provided details on how these positions would
The Resources Management Division has 14                  be allocated within the organization and the
FTE currently assigned to the OIG headquarters.           performance improvements that would accrue as
The staff allocation for the five functional areas        a direct result.
is as follows.
                                                          The staff executed the 1998 budget within .001
                                                          percent of our authority.

                                                          Human Resources Management

                                                          During this period, the HRM staff brought on
                                                          board 36 employees from 13 recruitment
                                                          actions. Of these selections, 44% went to
                                                          females and 17% to minorities.




                                                     59
                                    Office of Departmental Reviews and Management Support

The HRM staff also processed 82 personnel
actions, 300 performance appraisals, 365 special
contribution awards, 12 time-off awards, and 2
quality step increases.

Travel

OIG personnel travel almost continuously. As a
result, the Travel section processed 1,551
Vouchers as well as 6 Authorities for Permanent
Change of Station.

Administrative Support

An increase in the size of the Special Inquiries
staff necessitated a relocation of this component.
To accommodate the move, an office renovation
was required. This involved substantial
coordination between the OIG client and
building management to ensure that construction
was completed as designed, telephone lines were
installed, and furniture and equipment were
ordered, delivered, and set-up on schedule.

In addition, this section processed 114
procurement actions and reviewed and approved
each month the 38 statements received by the
OIG’s cardholders under the Government’s
Purchase Card Program.

Customer Satisfaction Measures

A Customer Satisfaction Survey form was
developed and sent to all OIG Employees. The
survey asked customers to rank services, ranging
from 1 (poor) to 5 (excellent). Resources
Management received an overall score of 4.0 in
its initial survey.




                                                     60
OTHER SIGNIFICANT OIG ACTIVITY
President’s Council on Integrity                           FAEC is to discuss and coordinate on issues
and Efficiency (PCIE)                                      affecting the Federal audit community in general
                                                           and, in particular, matters affecting audit policy
Investigation “Best Practices”                             and operations of common interest to FAEC
                                                           members. In addition, the AIG for Auditing is
The Chair, Investigations Committee, requested             the Federal audit community representative on
that a working group, comprised of Assistant               the PCIE audit committee.
Inspectors General for Investigations of those
agencies represented on the committee, convene             Inspections and Evaluation Roundtable
to discuss “best practices” in the IG community.
The working group was convened in the wake of              The AIG for Healthcare Inspections works
recent concerns voiced by several congressional            intensively with the PCIE Inspections and
oversight committees about the operations of               Evaluations Roundtable and has provided
some IG offices. In addition, because 1998                 leadership in developing a core skills inventory
represents the twentieth anniversary of the IG             for government inspectors and evaluators. The
Act, the chair thought that the time was right to          Deputy AIG for Healthcare Inspections serves as
examine the way in which the IG community                  co-chair of the Inspection and Evaluation
conducts its investigations. The VA Assistant              Roundtable’s Education and Training
Inspector General (AIG) for Investigations was             Subcommittee.
asked to chair the working group. The working
group examined existing investigative polices,             OIG Management
training issues, and the need for investigative            Presentations
oversight procedures. In addition, equipment for
IG investigators was discussed. A report was               Presentation to VBA’s Directors’
submitted to the entire committee. On                      Conference
September 10, 1998, the committee concurred
with the report recommendations and selected               The Inspector General provided a presentation
staff, from nominations submitted by                       on OIG activities to VBA’s Directors’
PCIE/Executive Council on Integrity and                    Conference. In his remarks, the Inspector
Efficiency member agencies, for a newly                    General expressed hope that the IG and VBA
established investigations advisory                        would continue to work closely to stem fraud
subcommittee. The new subcommittee will                    against VBA.
continue to examine “best practices” in the IG
community and make recommendations to the                  Presentation to Senate Committee
investigations committee. The VA AIG for                   Staffers on Automated Data Processing
Investigations will chair the new subcommittee,            (ADP) Controls
which will also work with IG Academy staff to
ensure that the best training possible is available        VA OIG audit staff met with the staff of the
to investigators in the community.                         Senate Committee on Veterans Affairs
                                                           concerning our review of ADP controls on the
Federal Audit Executive Council (FAEC)                     FY 1997 CFS audit. General Accounting Office
                                                           (GAO) ADP auditors also met with the
The AIG for Auditing was elected chairperson               Committee staff. Our review found significant
of the FAEC for 1998. The purpose of the                   weaknesses, which made VA assets and
                                                           financial data vulnerable to error or fraud.




                                                      61
                                                                     Other Significant OIG Activity

Association for Government                              Both working groups are important in sharing
Accountants (AGA)                                       information on areas of common interest with
                                                        the objective of improving the Federal financial
The AIG for Auditing participated on the AGA            statement audit process.
Board to review and award Certificate of
Excellence in Accountability Reporting. He is           Kansas City Federal Executive Board
also a member of VA’s Chief Financial Officers
Council.                                                The Director, Kansas City Audit Operations
                                                        Division, conducted a seminar on “Fraud
Presentation at PCIE Roundtable                         Detection” for the Greater Kansas City Federal
                                                        Executive Board at their annual Best Practices
The AIG for Auditing and the Director, Kansas           Symposium.
City Audit Operations Division, conducted a
seminar on electronic workpapers to the PCIE            Presentation at a PCIE Training
Roundtable. The presentation discussed an               Symposium
electronic workpaper system developed by our
office. A similar presentation was provided to          VA OIG audit staff presented a briefing on
the National Association of Local Government            Information Technology contracting at a PCIE
Auditors at their national professional                 training symposium.
development conference.
                                                        Presentations at International Nursing
Presentation at Information Security                    Conference
Officers' Conference
                                                        An Office of Healthcare Inspections Registered
VA OIG audit staff presented a briefing on OIG          Nurse Health Systems Specialist made several
operations and information security issues              presentations at an International Nursing
identified by our audit work. The presentation          Symposium in Costa Rica. Her presentations
highlighted key areas for VA focus.                     included such wide-ranging subjects as nursing
                                                        oncology procedures, cancer prevention, and
Participation in VHA's Year 2000 (Y2K)                  various aspects of breast cancer detection,
Conferences                                             prevention, and treatment.

VA OIG audit staff participated in VHA's Y2K            Presentation at the National Logistics
conference and was on a panel with                      Management Training Symposium
Congressional staff. The project manager also
discussed Y2K issues that had been identified as        The OIG Counselor and Director, Contract
part of an ongoing OIG audit.                           Review and Evaluation Division, gave a
                                                        presentation on lessons learned from OIG audits.
Participation in Financial Statement                    The conference was attended by all
Audit Work Groups                                       organizational elements of VA and by
                                                        representatives from other government agencies.
During this reporting period, the OIG financial
audit staff continued their participation in the
Federal Audit Executive Council subgroup on
financial statement audits and in the PCIE
financial statement audit manual task force.




                                                   62
                                                                        Other Significant OIG Activity

Coalition for Government Procurement                      OIG Congressional Testimony
Health Care Contracting Workshop
                                                          In May 1998, the Inspector General testified
An audit manager, Contract Review and                     before the House Veterans’ Affairs Oversight
Evaluation Division, presented a talk on “The             and Investigations Subcommittee at a hearing on
Ins and Outs of Managing Pharmaceutical and               the results of a GAO report, “Veterans Affairs
Medical Equipment Schedules.” We provided                 Special Inquiry Report was Misleading,” dated
information to industry representatives on the            May 13, 1998. The testimony addressed the
changes in the procurement regulations and the            findings and conclusions of the GAO report on a
FSS contracting requirements. Specifically, the           1995 Special Inquiry into a cover-up of an
changes in disclosure requirements, the common            increase in deaths at a VA facility. While the
difficulties we have experienced during                   Inspector General did not agree with the GAO
preaward reviews, how we audit a contractor’s             on several issues, actions were taken to improve
compliance with the price reduction clause, and           certain processes and procedures.
requirements of the new postaward audit clause.
                                                          Obtaining Required Information or
FSS Training Class, National Acquisition                  Assistance
Center
                                                          Sections 5(a)(5) and 6(b)(2) of the Inspector
The Director, Contract Review and Evaluation              General Act of 1978 require the Inspector
Division gave a presentation on FSS preaward              General to report instances where access to
and postaward audits to a group of contracting            records or assistance requested was
officers and General Counsel attorneys at the             unreasonably refused, thus hindering the ability
National Acquisition Center. Both auditors and            to conduct audits or investigations. During this
contracting officers benefit from sharing work-           6-month period, there were no reportable
related experiences in these training sessions.           instances under these sections of the Act.
Presentation at the Johnson & Johnson                     Under P.L. 95-452, the IG has authority “… to
Annual Government Contract Seminar                        require by subpoena the production of all
                                                          information, documents, reports, answers,
An audit manager, Contract Review and                     records, accounts, papers, and other data and
Evaluation Division, made a presentation at the           documentary evidence necessary . . . .” The use
Johnson & Johnson Government Contract                     of IG subpoena authority has proven valuable in
Seminar. Presentation topics included preaward            our efforts, especially in cases dealing with third
and postaward audits, commercial selling                  parties. During this reporting period, 37
practices, defective pricing, price reduction, and        subpoenas were issued in conjunction with
the OIG role in VA FSS contracting.                       various OIG investigations, audits, and reviews.
Participation in Paperless Auditing
Conference

We provided information on Electronic FOIA,
electronic redactions, and electronic information
management at the Conference on Paperless
Auditing sponsored by PCIE's Federal Audit
Executive Council.




                                                     63
     Other Significant OIG Activity




64
                                         APPENDIX A
                           DEPARTMENT OF VETERANS AFFAIRS
                             OFFICE OF INSPECTOR GENERAL
                                 REVIEWS BY OIG STAFF

  Report                                                         Funds Recommended
 Number/                                                            for Better Use    Questioned
Issue Date                    Report Title                        OIG      Management   Costs

INTERNAL AUDITS
8D2G07066 Audit of Security Controls for the Integrated Data
4/23/98   Communications Utility

8R3A01101 Audit of Cost-Per-Test Leases and Reagent Rental       $32,000,000    $32,000,000
5/13/98   Contracts in Pathology and Laboratory Medicine
          Service

8AFG10103 Report of Audit of the Department of Veterans
5/18/98   Affairs Consolidated Financial Statements for Fiscal
          Years 1997 and 1996

8R5D02107 Audit of Adult Day Care/Clinics Construction Project      $913,000      $913,000
5/28/98   at Department of Veterans Affairs Medical Center
          Asheville, NC

8D2G01067 Audit of VA's Workers' Compensation Program Cost       $246,931,574 $246,931,574
7/1/98

8R1G01118 Audit of the Medical Care Cost Recovery Program         $83,223,496   $83,223,496
7/10/98

8R3G01123 Audit of the Government Travel Card Program
7/14/98

8R5D02127 Audit of Nonrecurring Maintenance Construction            $243,300      * $88,545
7/24/98   Project at Department of Veterans Affairs
          Domiciliary White City, OR

8ANG01117 Audit of VHA Actions on Accounts Receivable              $3,703,000    $3,703,000
8/6/98

8R5D02133 Audit of Energy Construction Project at Department        $238,269      $238,269
8/12/98   of Veterans Affairs Medical Center Ann Arbor, MI

8R5D02139 Audit of Pharmacy Renovation Project at Department        $115,590      $115,590
9/10/98   of Veterans Affairs Medical Center San Francisco,
          CA

* Management disagreed with OIG estimate.



                                                    65
Report                                                           Funds Recommended
 Number/                                                            for Better Use    Questioned
Issue Date                    Report Title                         OIG     Management   Costs

INTERNAL AUDITS (Con’t)
8R5B01147    Audit of Data Integrity for Veterans Claims
9/22/98      Processing Performance Measures Used for Reports
             Required by the Government Performance and
             Results Act

8R3A01149 Summary Report: Audits of Pathology and                  $2,000,000   $2,000,000
9/30/98   Laboratory Medicine Service

OTHER OFFICE OF AUDIT REVIEWS
8AFG10102 Accuracy of Property, Plant, and Equipment Financial
5/27/98   Information

8R1G10106 Management Letter, Fiscal Year 1997 Financial
5/29/98   Statements, VA Life Insurance Programs and
          Selected Loan Guaranty Program Financial Activities

8R8E11113    Evaluation of VA Freight and Household Goods          $1,277,000         * $0
6/29/98      Transportation Programs

8R4G10128 Management Letter, Fiscal Year 1997 Consolidated
7/29/98   Financial Statements – Veterans Benefits
          Administration Finance Center Hines, IL

8R1B12130    Evaluation of the Life Insurance Programs'
7/31/98      Administrative Expenses

8AFG10140 Management Letter – Payroll Transactions
9/10/98

8AFG10141 Management Letter – Expenditure Transactions
9/10/98

SPECIAL INQUIRY

8PRB01097 Alleged Improper Reimbursement of Relocation                                       $19,352
4/17/98   Expenses, Veterans Benefits Administration Regional
          Office, San Diego, CA

8PRA19096 Alleged Travel and Funds Management Irregularities                                    $98
4/20/98   by a Former VHA Quality Management Official

8PRA19095 Conduct, Personnel, and Contracting Issues at the                                    $104
5/4/98    James A. Haley VA Medical Center, Tampa, FL

8PRG03110 Alleged Misconduct by Employees at the VA Medical
6/3/98    Center Gainesville, FL

* Management estimate will be provided at a later date.


                                                     66
Report                                                               Funds Recommended
 Number/                                                                for Better Use    Questioned
Issue Date                    Report Title                             OIG     Management   Costs

SPECIAL INQUIRY (Con’t)

8PRF03115    Alleged Use of Official Position for Personal Gain,
6/30/98      VA Medical Center Iowa City, IA

8PRF03119    Alleged Interference With Employees' Right to
7/22/98      Report Complaints VA Medical Center Albuquerque,
             NM

8PRE11126    Furniture Purchases by Veterans Integrated Service
7/27/98      Network 12, Hines, IL

8PRE11134    Procurement Issues, VA Medical Center Ann Arbor,
9/16/98      MI

8PRG03144 Management, Clinical, and Administrative Issues at                                    $8,828
9/29/98   the VA Central Alabama Veterans Health Care
          System (CAVHCS)

HEALTHCARE INSPECTIONS

8HIA28105    Demographic Descriptors of Veterans Health
5/22/98      Administration's Acute Care Patient Population

8HIA28111    Inspection of Alleged Medication System Problems
6/2/98       Colmery-O'Neil VA Medical Center Topeka, KS

8HIA28116    Inspection of Alleged Mistreatment of a Post-
7/1/98       Traumatic Stress Disorder Patient Department of
             Veterans Affairs Medical Center Iowa City, IA

8HIA28121    Inspection of Alleged Inappropriate Medical Care and
7/13/98      Transfer of a Nursing Home Patient, Department of
             Veterans Affairs Medical Center Huntington, WV

8HIA28122    Inspection of Selected Clinical Issues in a Patient's
7/13/98      Care Department of Veterans Affairs Medical Center
             Atlanta, GA

8HIA28124    Quality Program Assistance Review Program
7/14/98      Oversight Review Report and Analysis

8HIF03125    Inspection of Patient Care Allegations and Quality
7/16/98      Program Assistance Review, Department of Veterans
             Affairs Medical Center Lyons, NJ

8HIA28129    Inspection of Alleged Inappropriate Medical Care
7/28/98      Department of Veterans Affairs Medical Center
             Tuskegee, AL




                                                      67
Report                                                                 Funds Recommended
 Number/                                                                  for Better Use    Questioned
Issue Date                    Report Title                               OIG     Management   Costs

HEALTHCARE INSPECTIONS (Con’t)

8HIA28132    Inspection of Alleged Inattentive and Inadequate Care
8/13/98      for a Patient's Chest Pain, Department of Veterans
             Affairs Medical Centers Birmingham and
             Montgomery, AL
8HIA28136    Inspection of Alleged Mistreatment of a Respite Care
8/26/98      Patient, Department of Veterans Affairs Medical
             Center Atlanta, GA

8HIA28137    Inspection of Allegations Pertaining to the Psychiatric
9/1/98       Service, Department of Veterans Affairs Medical
             Center North Chicago, IL

8HIF03145    Quality Program Assistance Review, Department of
9/17/98      Veterans Affairs Medical Center Washington, DC

8HIA28150    A Description and Analysis of the Office of
9/28/98      Healthcare Inspections' Most Common Findings in
             Hotline Inspections: Fiscal Years 1993, 1994, and
             1995

8HIA28151    Suggested Supplementary Statistical Options for
9/29/98      Monitoring Healthcare

8HIA28152    Inspection of Alleged Mismanagement of Psychiatric
9/30/98      Programs William Jennings Bryan Dorn Veterans'
             Hospital Columbia, SC

CONTRACT REVIEWS *

8PEE02086    Review of Federal Supply Schedule Proposal
4/3/98       (Solicitation Number M3-Q4-97), Fuji Medical
             Systems U.S.A., Inc., Stamford, CT

8PEE10094    Postaward Review of Federal Supply Schedule
4/6/98       Contract V797P-3762j Fuji Medical Systems U.S.A.,
             Inc., Stamford, CT

8PEE02093    Review of Federal Supply Schedule Proposal
4/9/98       (Solicitation Number M3-Q3-97) a-Dec, Inc.,
             Newberg, OR

* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these reviews
are determined when the OIG receives the contracting officer’s decision on the report recommendations.




                                                       68
Report                                                            Funds Recommended
 Number/                                                             for Better Use    Questioned
Issue Date                   Report Title                           OIG     Management   Costs

CONTRACT REVIEWS (Con’t)
8PEE02099    Review of Federal Supply Schedule Proposal
4/23/98      (Solicitation Number M3-Q3-97) Dentsply Trubyte,
             York, PA

8PEE02098    Review of Federal Supply Schedule Proposal            $2,136,157
5/1/98       (Solicitation Number M3-Q4-97) Bayer Corporation,
             Agfa Division, Ridgefield Park, NJ

8PEE02100    Review of Federal Supply Schedule                      $784,625
5/15/98      Proposal (Solicitation Number M5-Q50-97) Organon,
             Inc., West Orange, NJ

8PEE02109    Review of Federal Supply Schedule Proposal            $1,695,678
6/3/98       (Solicitation Number M3-Q3-97) Star Dental,
             Lancaster, PA

8PED03112 Audit of Termination Settlement Proposal and Claims       $333,886
6/24/98   for Equitable Adjustment Submitted by Bar-Con
          Corporation Contract V523c-1129

8PEE02114    Review of Federal Supply Schedule Proposal
6/24/98      (Solicitation Number M3-Q3-97) Kavo America
             Corporation, Lake Zurich, IL

8PEA12104 Audit of Claim for Alleged Damages Under an               $318,008
7/1/98    Agreement with a VAMC

8PEE02108    Review of Federal Supply Schedule Proposal            $9,340,040
7/20/98      (Solicitation Number M3-Q4-97) Imation Enterprises
             Corporation Oakdale, MN

8PEX20135 Review of a Pharmaceutical Company's                                             $140,524
9/4/98    Implementation of Section 603 Drug Pricing
          Provisions of Public Law 102-585

8PEX22138 Review of Prime Vendor Contractor Billings                                      $9,392,565
9/10/98

8PEX14153 Federal Supply Schedule (FSS) V797P-3510j,                                         $1,980
9/30/98   Awarded to Diatek Instruments, Inc, San Diego, CA




                                                    69
Report                                                        Funds Recommended
 Number/                                                         for Better Use    Questioned
Issue Date                   Report Title                       OIG     Management   Costs

CONTRACT REVIEWS (Con’t)
8PEX06148 Review of Federal Supply Schedule Proposal               $87,425
9/30/98   (Solicitation Number M3-Q3-97) Nobel Biocare
          USA, Inc., Westmont, IL

8PEX12154 Post Award Audit of FSS Contract V797P-5947j,                                       $2,150,000
9/30/98   Boehringer Mannheim Corp., Indianapolis, IN

TOTAL:                        60 Reports                    *$385,341,048    $369,213,474   $11,713,451

* The difference between the OIG and Management estimates is $16,127,574. The difference is explained as
follows: Pending receipt of contracting officer’s decision - $14,695,819; Management disagreed with OIG
estimate - $154,755; Management estimate will be provided at a later date - $1,277,000.




                                                  70
                                         APPENDIX B
                         DEPARTMENT OF VETERANS AFFAIRS
                           OFFICE OF INSPECTOR GENERAL
                       CONTRACT REVIEWS BY OTHER AGENCIES

                                                                                  Funds
 Report                                                                        Recommended
 Number/                                                                        for Better Unsupported
Issue Date                          Report Title                                    Use       Costs

8PEN03113     Proposal, RFP No. 626-18-98 Design/Construct Canopies, VAMC
4/14/98       Nashville, Kiddway Corporation, Nashville, TN

8PEN03119     Proposal, Contract No. V460c-310, Replace Fire Alarm & Sprinkler,      $4,476
7/1/98        VAMC Wilmington, R. I. Williams & Associates, Glenside, PA

8PEN03117     Proposal, Contract No. V573p-3990, Transcription Serv., VAMC         $106,975
7/21/98       Gainesville, Precision Communications, Inc., Derry, NH,

8PEN03123     Proposal, RFP No. 527-22-98, Install Sprinkler, VAMC Brooklyn,
7/29/98       A & A Associates, Brooklyn, NY

8PEN03127     Proposal, RFP No. 640-98-114, Roof Repair & Replacement,              $29,162
7/30/98       VAMC Palo Alto, Architectural Systems Corp., Sausalito, CA

8PEN02005     Proposal, Project 508-018a, Clinical Addition, VAMC Atlanta,          $17,565
8/6/98        Caddell Construction Company, Montgomery, AL

8PEN02006     Proposal, RFP No. D-35, Seismic/Modernation, VAMC Memphis,
8/6/98        Cadde Construction Co., Memphis, TN

8PEN03132     Proposal, RFP No. 584-46-98, Remodel Physical Therapy, VAMC
8/7/98        Iowa City, Channel Construction Company, Omaha, NE

8PEN03001     Proposal, RFP No. 600-0032-48, Payee Services, VAMC West Los
8/12/98       Angeles, St. Joseph Center, Venice, CA

8PEN02107     Proposal, Project No. 506-027b, Const. Pedestrian Bridge, VAMC
8/17/98       Ann Arbor, Demaria Building Company, Inc., Novi, MI

7PEN03137     Claim, Cont. V554c-755, Remodel Outpatient Clinic, VAMC               $99,383
9/1/98        Denver, Charles G. Williams Construction, Inc., Denver, CO

7PEN02302     Claim, Project No. 501-051, Clinical Services Addition, VAMC         $658,517
9/22/98       Albuquerque, Centex Bateson Construction Co., Dallas, TX

TOTALS:                                  12 Reports                                $916,078

The Defense Contract Audit Agency (DCAA) completed all the reports issued. This data is also
reported in the DoD OIG's Semiannual Report to Congress.




                                                      71
72
                                                APPENDIX C
                CONTRACT AUDIT REPORTS FOR WHICH A CONTRACTING
                  OFFICER DECISION HAD NOT BEEN MADE FOR OVER
                        6 MONTHS AS OF SEPTEMBER 30, 1998

                                                                  Recommended        Reason for Delay
                                                     Questioned     Better Use       and Planned Date
 Report Title, Number, and Issue Date                  Costs         of Funds         for a Decision

 Contract Reviews by OIG

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT
Preaward Review of Federal Supply Schedule                            $4,570,800   Pending receipt of
Proposal Submitted by Johnson and Johnson                                          Contracting Officer Price
Healthcare Systems, Inc., Ethicon Inc., Piscataway                                 Negotiation Memorandum
NJ, 7PE-E12-088, 5/20/97                                                           (PNM); No planned
                                                                                   decision date available.

Preaward Review of Federal Supply Schedule                                         Pending receipt of
Proposal Submitted by Johnson and Johnson                                          Contracting Officer PNM;
Healthcare Systems, Inc., Ethicon Endo Surgery Inc.,                               No planned decision date
Piscataway, NJ, 7PE-E02-092, 6/6/97                                                available.

Preaward Review of Federal Supply Schedule Proposal                  $10,806,808   Pending receipt of
Submitted by Johnson and Johnson Healthcare                                        Contracting Officer PNM;
Systems, Johnson and Johnson Medical Inc.,                                         No planned decision date
Piscataway, NJ, 7PE-E02-094, 7/11/97                                               available.

Review of Federal Supply Schedule Proposal                            $5,918,105   Pending receipt of
(Solicitation No. M3-Q3-92) Johnson and Johnson                                    Contracting Officer PNM;
Healthcare Systems Inc., Cordis Corporation and J&J                                No planned decision date
Interventional Systems, Piscataway, NJ,                                            available.
7PE-E12-107, 7/24/97

Review of Federal Supply Schedule Proposal                            $5,484,450   Pending receipt of
(Solicitation No. M5-Q50-97) Wyeth-Ayerst                                          Contracting Officer PNM;
Laboratories, Philadelphia, PA, 7PE-E02-127, 9/4/97                                No planned decision date
                                                                                   available.

Review of Federal Supply Schedule Proposal                            $2,718,799   Pending receipt of
(Solicitation No. M5-Q50-97), Schein Pharmaceutical                                Contracting Officer PNM;
Inc., Florham Park, NJ, 7PE-E02-134, 9/17/97                                       No planned decision date
                                                                                   available.

Review of Federal Supply Schedule Proposal                           $3,580,134    Pending receipt of
(Solicitation No. M5-Q50-97), Bayer Corporation                                    Contracting Officer PNM;
Pharmaceutical Division, West Haven, CT                                            No planned decision date
7PE-E02-130, 9/23/97                                                               available.




                                                        73
                                                                Recommended        Reason for Delay
                                                   Questioned     Better Use       and Planned Date
 Report Title, Number, and Issue Date                Costs         of Funds         for a Decision

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT (Con’t)
Review of Federal Supply Schedule Proposal                         $3,684,555    Pending receipt of
(Solicitation Number M5-Q50-97), Roxane                                          Contracting Officer PNM;
Laboratories, Inc., Columbus, OH,                                                No planned decision date
8PE-E02-006, 10/2/97                                                             available.

Review of Federal Supply Schedule Proposal                                       Pending receipt of
(Solicitation Number M5-Q50-97), Alcon                                           Contracting Officer PNM;
Laboratories, Inc., Forth Worth, TX,                                             No planned decision date
8PE-E02-012, 10/8/97                                                             available.

Review of Federal Supply Schedule Proposal                         $7,893,240    Pending receipt of
(Solicitation Number M5-Q50-97), Boehringer                                      Contracting Officer PNM;
Ingelheim Pharmaceuticals, Inc., Ridgefield, CT, 8PE-                            No planned decision date
E02-021, 10/16/97                                                                available.

Review of Federal Supply Schedule Proposal                         $92,037,146   Pending receipt of
(Solicitation Number M5-Q50-97), Schering                                        Contracting Officer PNM;
Corporation, Union, NJ, 8PE-E02-024, 10/17/97                                    No planned decision date
                                                                                 available.

Review of Federal Supply Schedule Proposal                         $17,084,449   Pending receipt of
(Solicitation Number M5-Q50-97), Ortho                                           Contracting Officer PNM;
Pharmaceutical Corporation, Raritan, NJ,                                         No planned decision date
8PE-E02-015, 10/20/97                                                            available.

Review of Federal Supply Schedule Proposal                          $1,266,297   Pending receipt of
(Solicitation Number M5-Q50-97), Smithkline                                      Contracting Officer PNM;
Beecham, Philadelphia, PA,                                                       No planned decision date
8PE-E02-029, 10/21/97                                                            available.

Review of Federal Supply Schedule Proposal                                       Pending receipt of
(Solicitation Number M5-Q50-97), Eli Lilly and                                   Contracting Officer PNM;
Company, Indianapolis, IN,                                                       No planned decision date
8PE-E02-016, 10/22/97                                                            available.

Review of Federal Supply Schedule Proposal                          $7,869,022   Pending receipt of
(Solicitation Number M5-Q50-97), Novartis                                        Contracting Officer PNM;
Pharmaceuticals Corporation, East Hanover, NJ,                                   No planned decision date
8PE-E02-026, 10/30/97                                                            available.




                                                        74
                                                                      Recommended        Reason for Delay
                                                         Questioned     Better Use       and Planned Date
 Report Title, Number, and Issue Date                      Costs         of Funds         for a Decision

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT (Con’t)
Review of Federal Supply Schedule Proposal                               $5,932,784    Pending receipt of
(Solicitation Number M5-Q50-97), Abbott                                                Contracting Officer PNM;
Laboratories Hospital Products Division, Abbott                                        No planned decision date
Park, IL, 8PE-E02-038, 11/5/97                                                         available.

Review of Federal Supply Schedule Proposal                                             Pending receipt of
(Solicitation Number M3-Q3-97), Dentsply Caulk                                         Contracting Officer PNM;
Milford, DE, 8PE-E02-055, 1/26/98                                                      No planned decision date
                                                                                       available.

Review of Federal Supply Schedule Proposal                                 $294,535    Pending receipt of
(Solicitation Number M3-Q3-92), Graphic Controls                                       Contracting Officer PNM;
Corporation, Buffalo, NY, 8PE-E02-063, 1/26/98                                         No planned decision date
                                                                                       available.

Review of Federal Supply Schedule Proposal                               $9,207,294    Pending receipt of
(Solicitation Number M5-Q50-97), McGaw                                                 Contracting PNM; No
Incorporated, Irvine, CA, 8PE-E02-064, 2/9/98                                          planned decision date
                                                                                       available.

Review of Federal Supply Schedule Proposal                                 $91,969     Pending receipt of
(Solicitation Number M3-Q3-97), Gendex Dental X-                                       Contracting Officer PNM;
Ray, Division of Dentsply International, Inc., Des                                     No planned decision date
Plaines, IL, 8PE-E02-074, 3/4/98                                                       available.

Review of Federal Supply Schedule Proposal                                $2,468,847   Pending receipt of
(Solicitation Number M3-Q4-97), Medrad, Inc,                                           Contracting Officer PNM;
Indianola, PA, 8PE-E02-084, 3/19/98                                                    No planned decision date
                                                                                       available.

Review of Federal Supply Schedule Proposal                               $3,126,441    Pending receipt of
(Solicitation Number M3-Q3-92, Open Season IV)                                         Contracting Officer PNM;
Howmedica, Inc., Pfizer Hospital Products Group                                        No planned decision date
Rutherford, NJ, 8PE-E02-081, 3/23/98                                                   available.

Audit of Claims and Requests for Equitable                                 $394,154    Pending receipt of
Adjustments Submitted by Bay Construction                                              Contracting Officer PNM;
Company, Contract Number V662C-1439,                                                   No planned decision date
8PE-E10-082, 3/25/98                                                                   available.

Review of Federal Supply Schedule Proposal                                             Pending receipt of
(Solicitation Number M3-Q3-97), Midwest Dental                                         Contracting Officer PNM;
Products Corporation (A Wholly Owned Subsidiary                                        No planned decision date
of Dentsply International, Inc.) Des Plaines, IL, 8PE-                                 available.
E02-089, 3/31/98




                                                            75
                                      Recommended                             Reason for Delay
                                        Better Use Unsupported                and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs                    for a Decision

 Contract Reviews by Other Agencies

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT

Claim, Contract No. V554C-684, Laundry Chute          $450,977              Claim in litigation; no
VAMC Denver, CO, Hughes-Groesch Construction                                planned resolution date
Co., Inc., Denver, CO, 7PE-N03-130, 3/31/97                                 available.

Claim, Contract V101DC-0048, Expand/Renovate        $1,469,934              Claim in appeal; planned
Bldg-1, VAMC Salt Lake, Interwest Construction                              resolution date not
Salt Lake City, UT, 7PE-N03-114, 9/30/97                                    available.

Proposal, RFP 648-23-97, Radiation Oncology           $17,850    $127,920   Negotiation not finalized;
Services Oregon Health Sciences University                                  no planned resolution date
Portland, OR, 7PE-N03-014, 12/1/97                                          available.

Claim, Contract V554C-749, Enclosure for Patios,      $48,502               Negotiation not finalized;
VAMC Denver, Charles G. Williams Construction,                              no planned resolution date
Inc., 7PE-N03-136, 1/23/98                                                  available.

Proposal, Project No. 543-015, Sprinkler & Fire       $503,356              Negotiation not finalized;
Alarm Pro, VAMC Columbia Fire Security Systems,                             no planned resolution date
Inc., Bossier City, LA,                                                     available.
8PE-N03-110, 3/19/98

 OFFICE OF FACILITIES MANAGEMENT
Change OR/FR 10 Contract No. V101BC0053              $126,130               Negotiation not finalized;
VAMC Atlanta, GA Caddell Contraction                                        resolution planned for next
Masterclean, Incorporated, Decatur, GA,                                     reporting period.
3PE-N02-111, 11/16/93

Adjustment Claim, V101C-1606, Construction           $271,599               Negotiation not finalized;
Service, VAMC Albany, Bhandari Constructors Inc.,                           no planned resolution date
Syracuse, NY, 5PE-N02-007, 3/31/95                                          available.

Claim, Contract No. V101C-1651, Environment         $7,370,861              Negotiation not finalized;
Improvement, VAMC North Chicago, Blount Inc.                                no planned resolution date
4PE-N02-202, 2/7/96                                                         available.

Claim, Contract V101C-1532, Asbestos Removal         $875,708    $1,898     Negotiation not finalized;
VAMC W. Roxbury, Saturn Construction Co., Inc.,                             resolution planned for next
Valhalla, NY, 5PE-N02-006, 2/23/96                                          reporting period.




                                                     76
                                      Recommended                     Reason for Delay
                                        Better Use Unsupported        and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs            for a Decision

 OFFICE OF FACILITIES MANAGEMENT (Con’t)

Claim, Project No. 632-062, 120 Bed Nursing Home       $1,623,126   Negotiation not finalized;
Care Unit, VAMC Northport, J.F. O’Healy                             resolution planned for next
Construction Corporation, Bayport, NY,                              reporting period.
3PE-N02-001, 3/26/96

Claim, Contract V101BC0036; Defect. Drawings           $3,363,356   Negotiation not finalized;
VAMC Palm Beach County, FL, Clark Construction                      no planned resolution date
Group, Inc., Hollywood, FL                                          available.
6PE-N02-106, 11/6/96

Claim, Project No. 553-808, Replacement Hospital,     $11,952,726   Negotiation not finalized;
VAMC Detroit, MI, Bateson/Dailey, Dallas, TX,                       no planned resolution date
6PE-N02-204, 12/11/96                                               available.

Claim, Contract No. V101C-1603, Install Sprinklers,    $1,120,170   Negotiation not finalized;
VAMC Boston, L. Addison & Associates, Inc.,                         no planned resolution date
Wakefield, MA,                                                      available.
6PE-N02-108, 12/19/96

Claim, Project No. 690-035 MFI Addition, VAMC           $724,755    Negotiation not finalized;
Brockton, Saturn Construction Co., Inc., Valhalla                   no planned resolution date
NY, 6PE-N02-001, 5/19/97                                            available.

Proposal, Project No. 672-045, Change Order             $284,827    Negotiation not finalized;
Outpatient Clinic Add., VAMC San Juan, J.A. Jones                   no planned resolution date
Construction Co., San Juan, PR,                                     available.
7PE-N02-007, 12/9/97

 OFFICE OF THE GENERAL COUNSEL
Claim, Contract No. V539C-591,                          $131,932    Contract in litigation; no
Install Incinerator, VAMC Cincinnati                                planned resolution date
R.E. Schweitzer Construction, Cincinnati, OH                        available.
4PE-N03-113, 6/21/94

Claim, Contract No. V657C-1103; Replace HVAC             $90,437    Claim in litigation; no
VAMC St. Louis, Gross Mechanical Contractors Inc.,                  planned resolution date
St. Louis, MO, 6PE-N03-119, 10/24/96                                available.

Proposal, Project No. 549-085, Clinical Addition,     $14,804,392   Claim in litigation; no
VAMC Dallas, Centex Construction Company, Inc.,                     planned resolution date
Dallas, TX, 7PE-N02-303, 5/20/97                                    available.




                                                        77
                                      Recommended                  Reason for Delay
                                        Better Use Unsupported     and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs         for a Decision


 OFFICE OF VETERANS HEALTH ADMINISTRATION

A-128, Fiscal Year Ended 6/30/96, State Approving                Negotiation not finalized;
Agency Contract, State Home Construction &                       planned completion date
Nursing Home Care, State of Idaho, Boise, ID,                    could not be provided.
8PE-G06-046, 1/7/98

A-128, Fiscal Year Ended 6/30/95, State Approving                Negotiation not finalized;
Agency Contract, State Home Construction &                       planned completion date
Nursing Home Care, State of Idaho, ID,                           could not be provided.
7PE-G06-058, 1/8/98




                                                    78
                                             APPENDIX D

           FOLLOWUP/RESOLUTION OF OIG RECOMMENDATIONS
The Inspector General Act Amendments of 1988 require identification of all significant management decisions
with which the Inspector General is in disagreement and all significant and other recommendations unresolved
for over 6 months (management decisions not made). We had no Inspector General disagreements on significant
management decisions and there were no internal audit recommendations unresolved for over 6 months as of
September 30, 1998. Contract report recommendations unresolved for over 6 months are included in
Appendix C.

Following are tables which provide a summary of the number of OIG reports with potential monetary benefits
that were unresolved at the beginning of the period, the number of reports issued and resolved during the period
with potential monetary benefits, and the number of reports that remained unresolved at the end of the period.

         SUMMARY OF UNRESOLVED AND RESOLVED OIG AUDITS
As required by the IG Act Amendments, Tables 1 and 3 provide statistical summaries of unresolved and
resolved audit reports for the period April 1, 1998 – September 30, 1998. The dollar figures used
throughout this report are based on the definitions included in the IG Act Amendments of 1988. The
figures are current as of September 30, 1998, and may reflect changes from the data in the individual
reports due to OIG validation to ensure compliance with the IG Act Amendments definitions.

TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS

Table 1 provides a summary of all unresolved audit reports and the length of time they have been unresolved.

                   MONTHS                 TYPE AUDIT                NUMBER            TOTAL
                     Over                 Internal Audit               0
                                                                                         44
                   6 Months              Contract Audit                  44
                   Less Than              Internal Audit                 1
                                                                                         16
                    6 Months             Contract Audit                  15
                                                             TOTAL                       60

Tables 2 and 3 show a total of 49 reports that were unresolved as of September 30, 1998. This number
differs from the 60 reports shown above because tables 2 and 3 include only reports with monetary benefits
as required by the IG Act Amendments. Tables 2 and 3 also provide the reports resolved during the period
with the OIG estimates of disallowed costs and funds to be put to better use, including those in which
management agreed to implement OIG recommendations and those in which management did not agree to
implement OIG recommendations. The Assistant Secretary for Management maintains data on the agreed
upon reports and Management estimates of disallowed costs and funds to be put to better use in order to
comply with the reporting requirements for the Secretary's Management Report to Congress, required by
the IG Act Amendments.



                                                       79
TABLE 2 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS

Table 2 summarizes reports, the dollar value of questioned costs, and the costs disallowed and allowed.

                                                                               NUMBER              QUESTIONED
                       RESOLUTION STATUS                                         OF                    COSTS
                                                                               REPORTS              (In Millions)
    No management decision by 3/31/98                                                 3                $ 5.5
    Issued during reporting period                                                    8                $ 11.7
               Total Inventory This Period                                          11                 $ 17.21
    Management decision during reporting period
        Disallowed costs                                                            11                 $ 16.0
        Allowed costs                                                                 0                $ 0
              Total Management Decisions This Period                                11                 $ 16.01
              Total Carried Over to Next Period                                       0                $ 01

1
  The total inventory this period amount ($17.2 million) minus the total management decision this period amount ($16.0
million) does not equal the carryover amount ($0) because of a $1.2 million questioned cost decrease during the period on a
report issued in a prior period.

Definitions:

•    Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG
recommends VA pursue collection, including Government property, services or benefits provided to
ineligible recipients; recommended collections of money inadvertently or erroneously paid out; and
recommended collections or offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor or grantee costs OIG recommends be disallowed by
the contracting officer, grant official, or other management official. Costs normally result from a finding
that expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or
other agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable.

•   Disallowed Costs are costs: that contracting officers, grant officials, or management officials have
    determined should not be charged to the Government and which will be pursued for recovery; or on
    which management has agreed that VA should bill for property, services, benefits provided, monies
    erroneously paid out, overcharges, etc. Disallowed costs do not necessarily represent the actual
    amount of money that will be recovered by the Government due to unsuccessful collection actions,
    appeal decisions, or other similar actions.

•   Allowed Costs are amounts on which contracting officers, grant officials, or management officials
    have determined that VA will not pursue recovery of funds.




                                                             80
TABLE 3 – RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 3 summarizes reports with Recommended Funds to be Put to Better Use by management, and the
dollar value of recommendations that were agreed to and not agreed to by management.


                                                                              NUMBER               RECOMMENDED
                     RESOLUTION STATUS                                          OF                FUNDS TO BE PUT
                                                                              REPORTS              TO BETTER USE
                                                                                                        (In Millions)

    No management decision by 3/31/98                                              65                     $319.8
    Issued during reporting period                                                 23                     $386.2
            Total Inventory This Period                                            88                     $706.0
    Management decisions during reporting period
      Agreed to by management                                                      22                     $404.5
      Not agreed to by management                                                  17                       $30.7
            Total Management Decisions This Period                                  39                    $435.2
            Total Carried Over to Next Period                                      491                    $245.42

1
  Of the 49 reports carried over, a management decision had not been made for over 6 months on 37 reports with a dollar value of
$229.5 million.
2
  The total inventory minus the total management decision does not equal the total carried over, due to a net decrease of Funds
Put to Better Use amounting to $25.4 million.

Definitions:
    Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not
incurred by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional
evidence supporting the costs is provided. Questioned costs normally result from findings such as a
failure to comply with regulations or contract requirements, mathematical errors, duplication of costs,
proposal of excessive rates, or differences in accounting methodology. Unsupported costs result from a
finding that inadequate documentation exists to enable the auditor to make a determination concerning
allowability of costs proposed.

 Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds
that will be used more efficiently based on management's agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were
not awarded as a result of audits.

 Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.

                                                              81
82
                                           APPENDIX E

                REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements prescribed by the Inspector General Act of
1978 (Public Law 95-452), as amended by the Inspector General Act Amendments of 1988 (Public Law
100-504), to the specific pages where they are addressed.

 IG Act
References                               Reporting Requirement                                          Page
Section 4 (a) (2)    Review of legislation and regulations                                                58

Section 5 (a) (1)    Significant problems, abuses, and deficiencies                                      1-60

Section 5 (a) (2)    Recommendations with respect to significant problems, abuses, and                   1-60
                     deficiencies

Section 5 (a) (3)    Prior significant recommendations on which corrective action has not been            79
                     completed

Section 5 (a) (4)    Matters referred to prosecutive authorities and resulting prosecutions and            i
                     convictions

Section 5 (a) (5)    Summary of instances where information was refused                                   63

Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value of questioned         65-71
                     costs and recommendations that funds be put to better use                       (App. A & B)

Section 5 (a) (7)    Summary of each particularly significant report                                     i to v

Section 5 (a) (8)    Statistical tables showing number of reports and dollar value of questioned          80
                     costs for unresolved, issued, and resolved reports                                (Table 2)

Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of                     81
                     recommendations that funds be put to better use for unresolved, issued, and       (Table 3)
                     resolved reports

Section 5 (a) (10)   Summary of each audit report issued before this reporting period for which no      73 to 78
                     management decision was made by end of reporting period                           (App. C)

Section 5 (a) (11)   Significant revised management decisions                                            None

Section 5 (a) (12)   Significant management decisions with which the Inspector General is in             None
                     disagreement




                                                       83
84
                                               APPENDIX F
                                             VA FIELD OPERATIONS
Investigations
Northeast Field Office (51NY) New York, NY........................................................... 212 807-3444
Boston Resident Agency (51BN) Boston, MA .............................................................. 781 687-3138
Newark Resident Agency (51NJ) Newark, NJ............................................................... 973 645-3590
Washington, DC Resident Agency (51WA) Washington, DC...................................... 202 565-8079
Southeast Field Office (51SP) Bay Pines, FL ................................................................ 727 398-9559
Atlanta Resident Agency (51AT) Atlanta, GA .............................................................. 404 347-7869
Columbia Resident Agency (51CS) Columbia, SC ....................................................... 803 695-6707
New Orleans Resident Agency (51NO) New Orleans, LA ........................................... 504 619-4340
West Palm Beach Resident Agency (51WP) West Palm Beach, FL............................. 561 882-7720
Western Field Office (51LA) Los Angeles, CA ............................................................ 310 268-4268
Phoenix Resident Agency (51PX) Phoenix, AZ ............................................................ 602 640-4684
San Francisco Resident Agency (51SF) Oakland, CA................................................... 510 637-1074
Central Field Office (51CH) Chicago, IL....................................................................... 708 216-2676
Kansas City Resident Agency (51KC) Kansas City, KS ............................................... 913 551-1439
Dallas Resident Agency (51DA) Dallas, TX ................................................................. 214 655-6022
Houston Resident Agency (51HU) Houston, TX .......................................................... 713 794-3652


Audit
Operations Division Atlanta (52AT) Atlanta, GA ......................................................... 404 347-7790
Austin Residence (52AU) Austin, TX............................................................................ 512 326-6216
Operations Division Boston (52BN) Boston, MA ......................................................... 781-687-3120
Operations Division Chicago (52CH) Chicago, IL........................................................ 708 216-2667
Dallas Residence (52DA) Dallas, TX ............................................................................ 214 655-6000
Operations Division Kansas City (52KC) Kansas City, KS .......................................... 816 426-7100
Los Angeles Residence (52LA) Los Angeles, CA......................................................... 310 268-4336
Philadelphia Residence (52PH) Philadelphia, PA.......................................................... 215 381-3052
Operations Division Seattle (52SE) Seattle, WA........................................................... 206 220-6654




                                                            85
Copies of this report are available to the public. Written requests should be sent to:

       Office of the Inspector General (53B)
       Department of Veterans Affairs
       810 Vermont Avenue, NW
       Washington, DC 20420


The report is also available on our Web Site:

       http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202 565-8620




                                           86
